<html>
<title> - IMPROVING EARLY CHILDHOOD DEVELOPMENT POLICIES AND PRACTICES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       IMPROVING EARLY CHILDHOOD
                   DEVELOPMENT POLICIES AND PRACTICES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 19, 2009

                               __________

                            Serial No. 111-9

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
47-944 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             John Kline, Minnesota
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Sablan, Northern Mariana 
    Islands
Dina Titus, Nevada
[Vacant]

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Donald M. Payne, New Jersey          Michael N. Castle, Delaware,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Rush D. Holt, New Jersey             Thomas E. Petri, Wisconsin
Susan A. Davis, California           Peter Hoekstra, Michigan
Raul M. Grijalva, Arizona            Mark E. Souder, Indiana
Joe Sestak, Pennsylvania             Vernon J. Ehlers, Michigan
David Loebsack, Iowa                 Judy Biggert, Illinois
Mazie Hirono, Hawaii                 Todd Russell Platts, Pennsylvania
Jared Polis, Colorado                Cathy McMorris Rodgers, Washington
Pedro R. Pierluisi, Puerto Rico      Rob Bishop, Utah
Gregorio Sablan, Northern Mariana    Bill Cassidy, Louisiana
    Islands                          Tom McClintock, California
Lynn C. Woolsey, California          Duncan Hunter, California
Ruben Hinojosa, Texas
Dennis J. Kucinich, Ohio
Jason Altmire, Pennsylvania
Dina Titus, Nevada
[Vacant]


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 19, 2009...................................     1

Statement of Members:
    Castle, Hon. Michael N., Senior Republican Member, 
      Subcommittee on Early Childhood, Elementary and Secondary 
      Education..................................................     1
        Prepared statement of....................................     3
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     4
        Prepared statement of....................................     5
    Payne, Hon. Donald M., a Representative in Congress from the 
      State of New Jersey, prepared statement of.................    57

Statement of Witnesses:
    Adams, Gina, senior fellow, Urban Institute..................    29
        Prepared statement of....................................    31
        Responses to questions for the record....................    58
    Dichter, Harriet, Deputy Secretary, Office of Child 
      Development and Early Learning, Pennsylvania Departments of 
      Education and Public Welfare...............................     7
        Prepared statement of....................................    11
        Responses to questions for the record....................    61
    Lowery, Lillian, Secretary, Delaware Department of Education.    35
        Prepared statement of....................................    37
        Responses to questions for the record....................    64
    Russell, Susan, president, Child Care Services Association...    25
        Prepared statement of....................................    27


      IMPROVING EARLY CHILDHOOD DEVELOPMENT POLICIES AND PRACTICES

                              ----------                              


                        Thursday, March 19, 2009

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Dale Kildee 
[chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Payne, Holt, Davis, 
Loebsack, Hirono, Polis, Woolsey, Hinojosa, Kucinich, Altmire, 
Titus, Castle, Petri, and Platts.
    Staff present: Tylease Alli, Hearing Clerk; Fran-Victoria 
Cox, Staff Attorney; Adrienne Dunbar, Education Policy Advisor; 
Curtis Ellis, Legislative Fellow, Education; Ruth Friedman, 
Senior Education Policy Advisor (Early Childhood); David 
Hartzler, Systems Administrator; Lloyd Horwich, Education 
Counsel and Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secretary Education; Fred Jones, Staff 
Assistant, Education; Jessica Kahanek, Press Assistant; Joe 
Novotny, Chief Clerk; Margaret Young, Staff Assistant, 
Education; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Robert Borden, 
Minority General Counsel; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; Susan Ross, Minority Director of Education and 
Human Services Policy; and Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel.
    Chairman Kildee [presiding]. A quorum being present, the 
hearing of the subcommittee will come to order. Pursuant to 
Committee Rule 7 (c), any member may submit an opening 
statement in writing, which will be made part of the permanent 
record.
    I now recognize myself, followed by Ranking Member Castle, 
Governor Castle, for opening statements.
    I am pleased to welcome my fellow subcommittee members, now 
some are second-termers here with us, appreciate very much your 
continued interest in this committee and your great work.
    I want to welcome those as they appear. There is a whip 
meeting going on right now. Congress is under a little scrutiny 
from the public right now, which they should be doing. And 
there is a whip meeting going on, so some will be arriving 
late.
    Welcome to those who are new to the committee, and I 
welcome the public and our witnesses to this hearing, 
``Improving Early Childhood Development Policies and 
Practices.''
    I was the one who, with the help of many in this room, 
wrote the first child care act, ABC Act, back in 1987. But it 
is appropriate that this is our first hearing this Congress, 
both because we are here to focus on the first years of a 
child's life and because there is no issue more important than 
early childhood development. I say that with real experience, 
having raised three children and having seven grandchildren all 
living within about 20 minutes of Washington, D.C. So we are 
the babysitters of choice for seven grandchildren.
    Last month, in his address to a joint session of Congress, 
President Obama set a goal of ensuring that every child has 
access to a complete, competitive education from birth forward. 
That is why Congress and President Obama worked together to 
increase funding by $2.3 billion for Head Start and Early Head 
Start and $2.1 billion for the Child Care and Development Block 
Grant in the American Recovery and Reinvestment Act and the 
recent 2009 appropriations bill, because those investments will 
preserve and create jobs and improve access and quality for the 
children who need those programs.
    That is why I was so pleased to see that President Obama's 
budget will commit significant new resources to early 
childhood, because the federal budget should reflect our values 
as a nation. And that is just what the president's budget will 
do. Now, you can judge an individual by how that individual 
spends his or her money. And you can judge government by how 
that government spends the taxpayers' money.
    And that is why I look forward to this committee working 
with the president to help parents and other educators make the 
early years of children's lives nurturing and enriching. Just 
about an hour and a half ago, I held Addison Kildee in my 
arms--she is 11 months old--and gave her a little kiss and came 
off to work. My son had dropped her off for daycare today at 
our house.
    Because ensuring that children and their families have 
access to high-quality, comprehensive services that help the 
children develop cognitively, physically, socially and 
emotionally enables them to succeed in school and in life. 
Children who receive quality early childhood education and 
development services do better in reading and math and are more 
likely to graduate from high school, attend college and hold 
higher paying jobs. The support and security that these 
services provide infants, toddlers and young children help 
their brains develop in the early years and set the 
foundation--literally--for later development and learning.
    Those early stimulations--sound, sight, touch--actually lay 
down, the physical circuitry of the brain. In 1965 when Head 
Start was enacted, those people were very prophetic. They 
didn't really realize what we know now about the physical 
development of the brain. But they wrote a Head Start bill that 
really helped that so much. And now later on, we find out the 
importance of that stimulation for the actual laying down the 
circuitry of the brain.
    We took some important steps last Congress. We authorized 
the Head Start Act to prioritize teaching quality and Early 
Head Start, among other things. I was proud to introduce that 
bipartisan reauthorization along with Chairman Miller and 
Governor Castle and Mr. Ehlers from Michigan and others. The 
committee also reported my colleague Ms. Hirono's PRE-K Act.
    But as we will hear today, meeting the goal that we share 
with President Obama is about more than any one program, but 
about ensuring that wherever children are, there are high 
standards and the resources and accountability to ensure those 
standards are met. I am confident that today's hearing will 
provide us with valuable information about the needs of young 
children and their families and what we can do to help meet 
those needs. As a father and grandfather, I know that is the 
key to their success.
    And now I yield to a very good friend of mine. We have been 
friends for many years--Governor Castle of Delaware.
    Governor?
    [The statement of Mr. Kildee follows:]

 Prepared Statement of Hon. Dale E. Kildee, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    It is appropriate that this is our first hearing this congress, 
both because we are here to focus on the first years of a child's life 
and because there is no issue more important than early childhood 
development.
    Last month, in his address to a joint session of Congress, 
President Obama set a goal of ensuring that every child has access to a 
complete, competitive education from birth forward.
    That is why Congress and President Obama worked together to 
increase funding by $2.3 billion for Head Start and Early Head Start, 
and $2.1 billion for the child care and development block grant in the 
American Recovery and Reinvestment Act and the recent 2009 
appropriations bill.
    Because those investments will preserve and create jobs and improve 
access and quality for the children who need those programs. That is 
why I was so pleased to see that President Obama's budget will commit 
significant new resources to early childhood.
    Because the federal budget should reflect our values as a nation. 
And that is just what the President's budget will do.
    And that is why I look forward to this committee working with the 
President to help parents and educators make the early years of 
children's lives nurturing and enriching. Because ensuring that 
children and their families have access to high-quality, comprehensive 
services that help the children develop cognitively, physically, 
socially and emotionally enables them to succeed in school and in life.
    Children who receive quality early childhood education and 
development services do better in reading and math, and are more likely 
to graduate from high school attend college, and hold higher paying 
jobs. The support and security that these services provide infants, 
toddlers and young children help their brains develop in the early 
years and set the foundation--literally--for later development and 
learning.
    These early stimulations--sound, sight, touch--actually lay down 
the physical circuitry of the brain. Wasted time diminishes that 
physical brain development.
    We took some important steps last congress.
    We reauthorized the Head Start Act to prioritize teacher quality 
and Early Head Start, among other things. I was proud to have been the 
chief sponsor of that bipartisan reauthorization along with Chairman 
Miller, Mr. Castle, Mr. Ehlers, and others. The Committee also reported 
my colleague Ms. Hirono's PRE-K Act.
    But as we will hear today, meeting the goal that we share with 
President Obama is about more than any one program, but about ensuring 
that wherever children are, there are high standards, and the resources 
and accountability to ensure those standards are met.
    I am confident that today's hearing will provide us with valuable 
information about the needs of young children and their families and 
what we can do to help meet those needs.
    As a father, grandfather, and former teacher, I know that is the 
key to their success and our success as a nation.
                                 ______
                                 
    Mr. Castle. Well, thank you very much, Mr. Chairman. I 
didn't know that Chairman Kildee was a one-man Head Start 
program until today. Well, thank you for all the work you do in 
this area. You are obviously very experienced. And thank you 
for holding this important hearing.
    I am also pleased to be here today examining early 
childhood education. Research increasingly points to the 
critical importance of quality early childhood education as the 
foundation for school success. Early childhood development is 
an issue the committee knows well, and one that is extremely 
important to me.
    Since serving as the governor of Delaware, I have actively 
worked to ensure children 5 years of age and younger have 
access to high-quality early education. Through the Focus on 
the First 60 Months initiative in Delaware, we recognized that 
the most effective way to assure children can take advantage of 
existing K-12 education opportunities is to make certain they 
are ready to learn when they enter school. Delaware continues 
to work on early identification and treatment, which Dr. 
Lowery, who will be here shortly, will speak to in a few 
minutes, so that young children start life healthy, enter 
school ready to learn, and are able to grow into productive 
citizens.
    In 2007, members on both sides of the aisle worked together 
to draft legislation which was ultimately signed into law, as 
Chairman Kildee has explained. That legislation reauthorized 
the Head Start program and built upon the strengths of the 
program in order to improve early childhood education 
opportunities for disadvantaged children. The reauthorization 
was a major stepping-stone in improving early childhood 
education, and this hearing today is also important as the 
Congress continues to focus on early childhood programs that 
promote the educational development of our nation's students.
    Recently President Obama outlined his plan to create 
incentives for states to support comprehensive and coordinated, 
high-quality early childhood programs for children from birth 
to age five. I agree that Congress should look at ways through 
which we can support the work states are currently doing to 
guarantee our youngest children are provided the early learning 
opportunities they need to succeed in school and in life. To do 
this, Congress must work in a bipartisan manner to make certain 
parents remain in control of their child's early childhood care 
and education.
    Congress must also ensure that states are given the 
flexibility they need to carry out successful early childhood 
programs while remaining mindful of taxpayer resources 
throughout the process, especially in these tough economic 
times. Additionally, I am hopeful that we can work together to 
coordinate, not duplicate, existing federal early childhood 
programs.
    Today we will hear from witnesses who will provide us with 
expert background on improving early childhood education. I 
look forward to hearing their advice about effective and 
efficient early childhood reform and learning what they are 
doing to help our nation's youngest and often most at-risk 
children.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Mr. Castle follows:]

Prepared Statement of Hon. Michael N. Castle, Senior Republican Member, 
  Subcommittee on Early Childhood, Elementary and Secondary Education

    Good morning and thank you, Chairman Kildee, for holding this 
important hearing. I am pleased to be here today examining early 
childhood education.
    Research increasingly points to the critical importance of quality 
early childhood education as the foundation for school success. Early 
childhood development is an issue the Committee knows well, and one 
that is extremely important to me.
    Since serving as the Governor of Delaware, I have actively worked 
to ensure children five years of age and younger have access to high-
quality early education. Through the Focus on the First Sixty Months 
initiative in Delaware, we recognized that the most effective way to 
assure children can take advantage of existing K-12 education 
opportunities is to make certain they are ready to learn when they 
enter school.
    Delaware continues to work on early identification and treatment, 
which Dr. Lowery will speak to in a few minutes, so that young children 
start life healthy, enter school ready to learn and are able to grow 
into productive citizens.
    In 2007, Members on both sides of the aisle worked together to 
draft legislation, which was ultimately signed into law. That 
legislation reauthorized the Head Start program and built upon the 
strengths of the Program in order to improve early childhood education 
opportunities for disadvantaged children. The reauthorization was a 
major stepping stone in improving early childhood education, and this 
hearing today is also important as the Congress continues to focus on 
early childhood programs that promote the educational development of 
our nation's students.
    Recently, President Obama outlined his plan to create incentives 
for states to support comprehensive and coordinated high-quality early 
childhood programs for children from birth to age five. I agree that 
Congress should look at ways through which we can support the work 
states are currently doing to guarantee our youngest children are 
provided the early learning opportunities they need to succeed in 
school and in life.
    To do this, Congress must work in a bipartisan manner to make 
certain parents remain in control of their child's early childhood care 
and education. Congress must also ensure that states are given the 
flexibility they need to carry out successful early childhood programs 
while remaining mindful of taxpayer resources throughout the process--
especially in these tough economic times. Additionally, I am hopeful 
that we can work together to coordinate, not duplicate, existing 
federal early childhood programs.
    Today we will hear from witnesses who will provide us with expert 
background on improving early childhood education. I look forward to 
hearing their advice about effective and efficient early childhood 
reform, and learning what they are doing to help our nation's youngest, 
and often most at-risk, children.
    Thank you Mr. Chairman, I yield back.
                                 ______
                                 
    Chairman Kildee. Thank you, Governor.
    Without objection, all members will have 7 calendar days to 
submit additional materials or questions for the hearing 
record.
    I would like now to introduce the very distinguished panel 
of witnesses with us this morning.
    Harriet Dichter is deputy secretary, Office of Child 
Development and Early Learning, Pennsylvania Departments of 
Public Welfare and Education. The Office of Child Development 
and Early Learning was created by Governor Rendell as part of a 
new initiative to link the Department of Public Welfare and the 
Department of Education to bolster early education and care for 
Pennsylvania children.
    As the head of that office, Ms. Dichter leads state efforts 
to raise the priority levels for early learning, including 
programs such as Pre-K Counts, the full-day kindergarten 
initiative, state-based Head Start program, the Keystone STARS 
early learning program, Nurse-Family Partnership, Child Care 
Works and Early Intervention.
    What do you do in your spare time? [Laughter.]
    We really welcome you here. You have a great reputation of 
knowledge and a great reputation of care for children.
    Gina C. Adams is a senior fellow at the Urban Institute. 
Her focus is on policies and programs that affect the 
affordability, quality and supply of child care and early 
education, with particular focus on policies affecting lower 
income families. Her current research includes multi-state 
studies of child care providers, subsidy policies and factors 
that shape quality.
    Prior to the Urban Institute, she was the assistant 
director of the child care and development division at the 
Children's Defense Fund. I used to work with Marian Wright 
Edelman, that is many years ago, on that. And the person who 
became first lady and senator and now secretary of state, she 
was involved in that at that time too.
    She began her career as a child care teacher for infants 
and toddlers and worked with low-income families.
    Sue Russell is currently president of the Child Care 
Services Association, a nonprofit committed to promoting 
affordable, accessible, high-quality early care and education. 
CCSA works locally, statewide and nationally. Sue developed 
both the T.E.A.C.H. Early Childhood and Child Care WAGE$ 
Project, initiatives that have been successful in increasing 
the education, compensation and retention of early childhood 
educators. Sue currently serves on various statewide and 
national boards and committees and is president of the board of 
the National Association for the Education of Young Children.
    I now yield to my friend, Governor Castle, to introduce 
Secretary Lowery.
    Mr. Castle. Thank you, Mr. Chairman.
    Dr. Lillian M. Lowery was appointed Delaware's secretary of 
education by Governor Jack Markell in January of 2009. Prior to 
appointment as secretary of education, Dr. Lowery served as 
superintendent of the Christina School District in Wilmington, 
Delaware. The district serves nearly 20,000 students who reside 
in portions of the city of Wilmington and surrounding suburbs.
    Before serving as superintendent in the Christina School 
District, Dr. Lowery was the assistant superintendent of 
Cluster VII for Fairfax County Public Schools in Fairfax, 
Virginia. She also served for 2 years as an area administrator 
for Fort Wayne Community Schools in Fort Wayne, Indiana. Dr. 
Lowery has taught middle and high school English in school 
districts in Fairfax and Alexandria, Virginia, and Gastonia, 
North Carolina. Secretary Lowery brings a lot of experience to 
the table, and I look forward to hearing your testimony this 
morning.
    Dr. Lowery, welcome.
    Chairman Kildee. We welcome you all. Again, for those who 
have not testified before this subcommittee before, let me 
explain our lighting system and the 5-minute rule. Everyone, 
including members, is limited to 5 minutes of presentation or 
questioning.
    The green light will be illuminated when you begin to 
speak. When you see the yellow light, it means you have 1 
minute remaining. When you see the red light, it means that 
your time has expired; you need to conclude your testimony.
    But please be certain as you testify to turn on and speak 
into the microphone in front of you and turn it off when you 
are finished. Now, we don't have a button up here for an 
ejection seat, so you may finish up your thought rather than 
cut off in the middle, so you have a little flexibility there.
    We will now hear from our first witness.

STATEMENT OF HARRIET DICHTER, DEPUTY SECRETARY, OFFICE OF CHILD 
                 DEVELOPMENT AND EARLY LEARNING

    Ms. Dichter. Thank you, good morning, everyone. I am 
Harriet Dichter. I am the deputy secretary for the Office of 
Child Development and Early Learning, which is part of both the 
Pennsylvania Departments of Education and Public Welfare. I am 
also co-chair of the Pennsylvania Early Learning Council.
    I want to start by really thanking all of you for 
acknowledging the important role of early education and the 
educational and economic payoff from including our existing 
early childhood program in the American Recovery and 
Reinvestment Act, and also for taking time this week to focus 
on early childhood education.
    As was mentioned, my office was created by Governor Ed 
Rendell to link the Department of Public Welfare and the 
Department of Education in order to raise the priority level 
for early learning and to really create an early learning 
system in Pennsylvania. Improving the national track record for 
investments and outcomes for our young children is essential. 
And based on our experiences in Pennsylvania, I have three 
points that I want to make while I am here today.
    The first, of course, is that there is no silver bullet, 
not just one investment or one program that works. What matters 
regardless of the early childhood program is a common framework 
of high standards, accountability and very importantly 
sufficient investment to make a difference.
    Secondly, the federal government has not been sufficiently 
proactive in this area and has left too much for the states to 
do, particularly in the area of financing. And third, proper 
public sector governance needs to be a focus in order to assure 
both good outcomes for children and the efficient use of our 
public dollars.
    So first, let me start by saying that to meet our 
children's and families' needs, we need a continuum of quality 
services. We can and we should expect to make investments in 
programs with different names, such as child care, pre-
kindergarten and Head Start, for example, and we should be 
expecting to invest in infants, toddlers and preschoolers in 
each and every year until they enter school.
    In Pennsylvania, we take advantage of an existing array of 
early childhood providers to create our system and to respond 
to the very diverse needs of our young children and their 
families. Our programs in our state reach about 300,000 
children and families through a network of school district 
providers, child care providers, Head Start providers, early 
intervention and home-visiting providers. But let me stress, 
although we have been busy working on this agenda, we are still 
only reaching 40 percent of our population with services that 
we consider to be of adequate quality.
    We insist in Pennsylvania that our programs do share 
certain commonalities. They have to meet high program and 
specific early learning standards. And I brought these just to 
show. We actually have published all of our standards, pre-k 
through second grade. We have parent materials for them to use, 
and we have classroom things to put up in rooms so people can 
take a look at those and see there is a way to do this in a 
sensitive way. Our early learning standards are linked to our 
third grade academic standards. They go beyond them because we 
have all of the child's development covered.
    We insist upon degreed and credentialed early childhood 
staff and benchmark compensation to go with that. Our 
curriculums and assessments have to align with our early 
learning standards. We have a big focus on partnerships for 
parents, program accountability, documentation of our 
children's progress and both sufficient financial and very 
importantly helping-hand supports that endorse and demand 
excellence.
    So here are some examples. We systematically and 
voluntarily are improving child care quality through Keystone 
STARS. This integrates research-based standards and ratings, 
improvement supports--and Sue is going to talk a little bit 
more about T.E.A.C.H. and WAGE$; we are a big investor in 
T.E.A.C.H., and we have a version of WAGE$ inside of Keystone 
STARS--and very importantly financial resources.
    An independent evaluation of our Keystone STARS program 
shows that our program reversed a 10-year decline in 
Pennsylvania in child care quality. Nearly 80 percent of our 
centers voluntarily participate, and last year 25 percent of 
them moved up at least one STAR level. We are serving 170,000 
children in this program, and increasingly our most vulnerable 
working families who participate in our Child Care Works 
subsidy program are increasingly selecting Keystone STARS 
providers. Each month, we see an uptick of maybe one or two 
percent more, so we are well over 40 percent of the families at 
this point.
    Another example, through our PA Pre-K Counts program, we 
reach at-risk 3-and 4-year-olds, and we use our Keystone STARS 
3 and 4 providers, school districts and Head Start to field 
this program. In our start-up year, which was 2007-2008, I am 
very proud to say that we both met all of our enrollment 
targets--we enrolled 12,000 children in less than 3 months in 
the first year--and 94 percent of those kids finished the 
school year with age-appropriate skills and behavior or 
emerging age-appropriate skills and behavior, something we 
consider to be a stunning first-year success rate.
    For at-risk infants and toddlers, we have home visiting 
through Nurse-Family Partnership and the Parent-Child Home 
Literacy Program. We also include in our array children with 
delays and disabilities through Early Intervention, and there 
our focus is on inclusive practice. We have moved our 
preschoolers by 10 percent just in 1 year into more inclusive 
environments.
    We support Head Start by adding state dollars to enroll 
more children. And to our knowledge, we are the only state in 
the country to house all of these programs in one office.
    Now, as I said, we cannot serve our children and families 
well using a silver-bullet approach that focuses on just one 
program, one age group or one financing stream. So key elements 
of our framework include high standards and expectations for 
program quality. These must be based on research and experience 
and focused on the best outcomes for our children.
    The professional preparation and ongoing education of our 
teachers and administrators--it is not enough to tell our 
teachers and administrators to achieve high standards. We have 
to give them assistance to help them get there and to maintain 
their excellence.
    Accountability for results is another focus. A practical 
way goes with that to help people in the broader community 
understand the results and why they matter for our entire 
society.
    And of course financial supports--I cannot stress this 
enough--link very directly and clearly to the standards we 
articulate at sufficient levels to get the job done. So our 
framework reminds us the work is complex, but it can be broken 
down into a realistic and achievable strategy.
    Second point I wanted to make is the importance of 
sufficient public investment. The established funding streams 
at the federal level--the Child Care and Development Block 
Grant, Head Start, IDEA Early Intervention for infants, 
toddlers and preschoolers--are not keeping pace with need. We 
are one of only eight states in the country to have 
consistently been improving our state investment in a full 
continuum of early childhood programs. We are making progress, 
but we have major gaps in our services.
    We started 5 years ago. Only 20 percent of our kids had 
access to a decent, quality program. Today we are at 40 
percent. This is possible because of our new state dollars. We 
have children at risk in every county, every city and every 
state in the U.S. New funding is needed to help close a 
staggering gap between those children, those at risk of school 
failure in particular, who are in our quality early learning 
programs and those who are not. We need to ensure a public 
funding base for early education, just as we work to ensure a 
public funding commitment to K-12.
    What does that mean? I will try to get to the end here. We 
have to significantly deepen our investment in our established 
federal programs and funding streams, but we also need to 
commit to new federal funding that will push a unified approach 
across all the early childhood programs, insist that the states 
have meaningful, research-based standards and accountability 
based on nationally acceptable minimums. That will facilitate 
coherence in the programs and produce quality results, and I 
believe it can be done with sensitivity to state implementation 
needs.
    The last point that I want to make has to do with the 
organization of the programs and the resources to have that 
happen. Our families really do not care, in my experience, what 
we call the programs. They just want to know when they are 
enrolling their child in a program that it is of good quality 
and it is responsive to their needs. And they do want to know, 
when we are using public dollars, that the dollars are 
efficient and well-leveraged.
    As we mentioned, in Pennsylvania we solved this problem 
when we created my office. It has given us great access into 
both educational resources and health and human services. We 
have a single staff to do the work, a consistent framework 
across the programs. We have to find a way for the federal 
government to do the same.
    In summary, there is not just one program that works. 
Children need this continuum of early learning services. We 
need a commitment to infants, toddlers and preschoolers alike. 
It is just fine to have programs with different names, 
different hours of service. It is objectionable, though, to 
have programs that don't have the same expectations for 
outcomes for children, the same standards for serving our 
children, the same expectations for performance and 
accountability and sufficient financing.
    Again, our parents expect that when a program opens its 
doors to them, it will serve them and our children well. From 
these simple precepts, I think there are several lessons, then, 
that we can take to inform the next phase of federal investment 
and policy.
    Thank you.
    [The statement of Ms. Dichter follows:]

  Prepared Statement of Harriet Dichter, Deputy Secretary, Office of 
                  Child Development and Early Learning

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Ms. Russell?

  STATEMENT OF SUSAN RUSSELL, PRESIDENT, CHILD CARE SERVICES 
                          ASSOCIATION

    Ms. Russell. Good morning, Chairman Kildee, Ranking Member 
Castle and members of the subcommittee. Thank you for this 
opportunity.
    We believe that improving the education, compensation and 
retention of the early childhood workforce is the key to 
producing positive health and educational outcomes for young 
children. In 1990, using data from the state's first early 
childhood workforce study, Child Care Services tested a 
scholarship model designed to address the low education, poor 
compensation and turnover of the workforce.
    Now operating in 21 states, T.E.A.C.H. scholarships help 
pay tuition, books and travel costs, and support paid release 
time to allow teachers to balance the extra load of going to 
school. As teachers complete their required credit hours, they 
receive a raise or a bonus and must continue teaching in their 
program for another year.
    In most T.E.A.C.H. states, teachers, directors and family 
child care providers working in child care, Head Start or pre-k 
settings are eligible for scholarships. T.E.A.C.H. scholarships 
always support formal coursework leading to credentials or 
degrees and require a funding partnership between individuals, 
their employers and the T.E.A.C.H program.
    In fiscal year 2008, states participating in T.E.A.C.H. 
spent about $28.3 million; the largest source of these funds 
came from the Child Care and Development Block Grant. Last 
year, over 21,000 individuals across the country, working in 
over 10,000 different early childhood programs received 
T.E.A.C.H. Early Childhood scholarships. Ten percent worked in 
Head Start programs, and 62 percent taught 3 and 4-year-olds. 
About 46 percent were women of color, typically earning less 
than $10 an hour.
    They attended almost 600 different colleges and 
universities. Together, these scholarship recipients completed 
about 130,000 credit hours. Their average earnings increased, 
and they left their classrooms at average rates of less than 8 
percent annually. And this is in a field that routinely 
experiences 40 percent turnover a year.
    While attending a community college, teachers' basic 
language and math literacy skills improve, as well as their 
knowledge of cognitive, social, emotional and physical 
development. About two-thirds of participants were working on 
their associate degrees, doing this while working full-time and 
achieving a 3.25 mean grade point average.
    In 1994, to address the systemic problems of low wages and 
high turnover, Child Care Services began the Child Care WAGE$ 
Project. Graduated supplements are paid directly to 
participants and tied to their level of education. Supplements 
are paid every 6 months with funding from Smart Start and 
CCDBG, as long as the individual remains in her classroom. 
Supplements range from $200 to $6,250 annually. Last year, we 
had almost 9,000 participants. Graduated supplements encourage 
continuing education. WAGE$ participants with 2-or 4-year 
degrees had a 14 percent turnover rate, identical to our K-12 
teachers.
    In many states with either T.E.A.C.H. or WAGE$ programs, 
there are waiting lists for participation; other states need 
funds to get these programs started. Investing in high-quality 
early care and education is essential for all of our children 
from birth to 5 if we want to stay competitive in a global 
economy. Disparate access to quality exists across age groups 
and for children within states and between states. States 
struggle to make the right choices, but resources are not 
adequate. With so many families unable to afford high quality 
child care and without the resources to help them, state 
administrators continually choose between quality and quantity.
    More funding is needed to ensure a uniform level of quality 
for all young children. The reauthorization of CCDBG provides 
us with such an opportunity. And we believe that one area that 
must be targeted with increased investments is raising the 
education and compensation of the early childhood workforce.
    Investments in increased educational opportunities tied to 
compensation and benefits provide early educators with a 
viable, sustainable career path in a field in which they will 
remain committed. T.E.A.C.H. scholarships and wage supplements 
help the early childhood workforce become better educated, 
compensated and consistent as it strives to meet the higher 
standards associated with pre-kindergarten, Head Start and 
quality rating systems. And direct investment in the workforce 
means that quality can be raised without burdening parents with 
additional costs.
    Our work has taught us that the early childhood workforce 
wants to increase its knowledge and skills through our nation's 
higher education system. The key is accessibility--having the 
money, the time and the support to make it possible. However, 
it is both unrealistic and unfair to expect the workforce to go 
back to school while they are working full time without help 
and without the promise of better wages and benefits.
    With sufficient investment in the workforce, we can improve 
education and retention. North Carolina's turnover rates are 
down, and the education of the workforce is up. And best of 
all, the overall quality of early care and education has 
dramatically improved. When teachers are living on poverty-
level wages and barely able to support their families, then 
leaving the job they love becomes a matter of necessity.
    Low education, poor compensation and high turnover are 
national workforce issues. It is time to address them with a 
national targeted investment.
    Thank you.
    [The statement of Ms. Russell follows:]

            Prepared Statement of Susan Russell, President,
                    Child Care Services Association

    Chairman Kildee, Ranking Member Castle, and members of the 
Subcommittee. Thank you for this opportunity. I am President of Child 
Care Services Association, a private nonprofit agency located in North 
Carolina that has been working every day for the last 35 years to 
ensure access to high quality, affordable child care. We believe that 
improving the education, compensation and retention of the early 
childhood workforce is key to producing positive health and educational 
outcomes for young children.
    In 1990, using data from the state's first early childhood 
workforce study, Child Care Services Association set out to test a 
scholarship model designed to address the low education, poor 
compensation and high turnover of the workforce. We began as a small 
pilot program with scholarships to help 21 teachers take community 
college courses leading to an associate degree in early childhood 
education. This successful pilot became T.E.A.C.H. Early Childhood(r), 
rapidly expanding in North Carolina and gradually to 20 other states.
    T.E.A.C.H. scholarships help pay tuition, books and travel costs, 
and often require and support paid release time to allow teachers to 
balance the extra load of going to school. As teachers complete their 
required credit hours, they receive a bonus or raise, and they must 
then commit to continue teaching in the field for another year. In most 
T.E.A.C.H. states, teachers, directors and family child care providers 
working in child care, Head Start or pre-k settings are eligible for 
scholarships. T.E.A.C.H. scholarships always support formal coursework 
leading to credentials or degrees and require a partnership between 
individuals, their employers and the T.E.A.C.H program, with each 
entity contributing to the cost. A scholarship counselor helps the 
individual maneuver the challenges of balancing school, work, family 
and scholarship responsibilities. In FY08 the 21 states participating 
in
    T.E.A.C.H. spent about $28.3 million; the largest source of these 
funds comes from the Child Care and Development Block Grant.
    Last year over 21,000 individuals across the country, working in 
over 10,000 different early care and education programs, received 
support from T.E.A.C.H. Early Childhood(r) scholarships. Ten percent 
worked in Head Start programs and 62% taught three and four year olds. 
About 46% were women of color, typically earning less than $10 per 
hour. They attended almost 600 different colleges and universities. 
Together, these scholarship recipients completed almost 130,000 credit 
hours. Their average earnings in most states increased between 7 and 10 
percent and they left their classrooms at average rates of less than 8 
percent annually. And this is in a field that routinely experiences 40% 
turnover a year. While attending a community college, teachers' basic 
language and math literacy skills improve, as well as their knowledge 
of cognitive, social, emotional and physical development. About two-
thirds of participants were working on their associate degrees, doing 
this while working full-time, and achieving a 3.25 mean grade point 
average.
    In 1994, as our next step to address the systemic problems of low 
wages and high turnover, CCSA began the Child Care WAGE$ program. This 
effort provides graduated supplements paid directly to participants and 
tied to their level of education. Supplements are paid every six months 
with funding from Smart Start and CCDBG, as long as the individual 
remains in her early care and education program. Supplements range from 
$200 to $6,250 annually. Last year, we had almost 9,000 participants. 
Because supplement amounts increase with more education, WAGE$ 
participants continue their education. WAGE$ participants with two-or 
four-year degrees had a 14% turnover rate, which is identical to the 
rate of teachers in our K-12 system. Two other states have WAGE$ 
programs. In many states with either T.E.A.C.H. or WAGE$ programs, 
there are waiting lists for participation; other states need funds to 
get these programs started.
    Investing in high quality early care and education is essential for 
all of our children from birth to five if we want to stay competitive 
in a global economy. Disparate access to quality exists across age 
groups, and for children within states and between states. States 
struggle to make the right choices, but resources are not adequate. 
With so many families unable to afford high quality child care and 
without the resources to help them, state administrators continually 
choose between quality and quantity. More funding is needed to ensure a 
uniform level of quality for all young children. The reauthorization of 
CCDBG provides us with such an opportunity. And we believe that one 
area that must be targeted with increased investments is raising the 
education and compensation of the early childhood workforce.
    Children of college-educated mothers have significantly better 
vocabularies by the age of three and far better educational outcomes 
than children with mothers with a high school education or less. 
Because early childhood educators act in loco parentis, often with 
young children 10 hours a day, 5 days a week, it is critical that they 
are well educated, supported and culturally competent. Investments in 
increased educational opportunities tied to compensation and benefits 
provide early educators with a viable, sustainable career path in a 
field in which they will remain committed. T.E.A.C.H. scholarships and 
wage supplements help the early childhood workforce become better 
educated, compensated and consistent as it strives to meet the higher 
standards associated with pre-kindergarten, Head Start and Quality 
Rating Systems. And direct investment in the workforce means that 
quality can be raised without burdening parents with additional costs.
    We have learned a lot in the last 19 years implementing these 
strategies in North Carolina and across the country. It is clear that 
the early childhood workforce wants to increase its knowledge and 
skills through our nation's higher education system. The key is 
accessibility * * * having the money, the time and the support to make 
it possible. However, it is both unrealistic and unfair to expect the 
workforce to go back to school while they are working full time without 
help and without the promise of better wages and benefits.
    We have learned that with sufficient investment in the workforce, 
you can improve education and retention. North Carolina's turnover 
rates are down and the education of the workforce is up * * * and the 
overall quality of early care and education has dramatically improved. 
Money makes the difference. When teachers are living on poverty level 
wages and barely able to support their families, then leaving the job 
they love becomes a matter of necessity. Low education, poor 
compensation and high turnover are workforce issues across our nation. 
It is time to address them with a national targeted investment. Thank 
you.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Ms. Russell.
    Ms. Adams?

STATEMENT OF GINA ADAMS, SENIOR FELLOW, URBAN INSTITUTE, CENTER 
            ON LABOR, HUMAN SERVICES AND POPULATION

    Ms. Adams. Mr. Chairman, members of the committee, I am 
Gina Adams, senior fellow at the Urban Institute, where I 
conduct research on child care and early education policies. 
Thank you very much for inviting me here today.
    Let me start by setting some context. Child care and early 
education is a reality for about 12.4 million children in the 
United States today, about 60 percent of all children in this 
age group. Children can be found in a variety of settings--
including Chairman Kildee's home. About 36 percent of all 
children are cared for in centers, about 15 percent by 
relatives, as we have heard, and about 11 percent by non-
relatives in home-based settings. Children are at different 
settings at different points in their lives and can often be in 
more than one setting in any given day.
    Parents' decisions about child care are based on a complex 
blend of preferences and constraints: what they want, what they 
can afford, what is available and what works for their child. 
Some families, including low-income families, working families 
and families with infants and toddlers or who have special 
needs, face far greater constraints in getting the choice that 
they want.
    This context, I think, underscores two important lessons 
for policy. First, policy solutions need to focus on a variety 
of settings; and second, they need to address the multiple 
constraints that families face. We cannot just focus on quality 
without also paying attention to affordability and supply.
    I would like to talk briefly about what children are 
getting in these settings. You already know that quality 
matters, but unfortunately the research has shown that the 
quality of much of the care in the United States is inadequate 
and that quality may be worse for low-income children and very 
young children, two groups that we care very much about.
    This shouldn't be surprising. For most of our child care 
settings, we have a market-based system, where child care 
providers can only charge as much as parents can pay. And if 
providers were to invest in the key components that we know 
matter--well-trained, well-paid staff, low numbers of children 
per adult--the amount that they would need to charge would make 
the service completely unaffordable for many parents.
    So providers have to provide services at prices that are 
lower than are needed for quality. And even at these lower 
levels of quality, families have to stretch to pay for care. 
For example, families below poverty who pay for care pay a 
remarkable quarter of their income for that care.
    Looking at the policy response, we have clearly come a very 
long way. Policymakers such as yourselves understand the 
importance of investing in this area and have made significant 
steps, most recently demonstrated through the stimulus package. 
We have invested more resources, though clearly not enough to 
serve all the eligible children in helping families access good 
quality care, mostly through Head Start and pre-kindergarten 
services. These efforts have helped, but more needs to be done.
    But relying primarily on these initiatives to provide the 
good quality that children need is not enough. They primarily 
serve 3-and 4-year-olds, with the exception of the very small 
Early Head Start program, so it is now doubled--thank you--and 
because they most commonly are offered on a part-day, part-year 
basis. As a result, our most effective policy strategies to 
ensure that children are getting what they need in terms of 
quality are not reaching some of the most critical populations: 
infants and toddlers and children of working parents.
    Interestingly, these populations are served by the Child 
Care and Development Block Grant. Much of the focus of the 
block grant is to help families afford care so that they can 
work. But unfortunately, both the funding level and the design 
of the program make it much more challenging to focus equally 
on ensuring the quality of the care that families use.
    Instead, in many states, the block grant is primarily used 
to help families access those very settings that I described a 
few minutes ago as being inadequate, and the quality is limited 
by what parents can pay. In addition, the funding levels of the 
block grant mean that state administrators are constrained, in 
even their ability to meet the program's primary goals and meet 
helping parents work.
    Only a fraction of the eligible children are served, and 
administrators face very difficult tradeoffs and constraints, 
limiting services, lowering provider payments or making 
families pay more. The good news is that we do have states, 
such as you just heard from Pennsylvania, that have managed to 
fight these constraints to make remarkable progress in using 
the block grant as part of an overarching strategy to support 
quality care for a broad range of children.
    However, as you also heard, they are very seriously limited 
in what they can do by the funding constraints and by the 
design of the program. These realities of the block grant 
challenge its ability to support quality for the families it 
serves and to coordinate with other systems to build a 
comprehensive approach for families.
    In closing, I commend you for focusing on these issues and 
for thinking about how to address the quality gaps in our early 
childhood policies and specifically those affecting our 
youngest children and the children of working parents. In this 
process, it is critical to focus on investments and strategies 
overall in our system, but also to make sure to focus on those 
that will allow the block grant to be a strong partner in this 
effort.
    The block grant already serves millions of the low-income 
children that we care about. State administrators need the 
resources to ensure that wherever they are, these children and 
their providers have access to the support that they need to 
build quality and to support their development.
    Thank you very much.
    [The statement of Ms. Adams follows:]

    Prepared Statement of Gina Adams, Senior Fellow, Urban Institute

    Mr. Chairman and members of the Subcommittee, I am Gina Adams, 
senior fellow at the Urban Institute, where I conduct research on low-
income children and the early childhood/child care systems and programs 
that serve them. Thank you for inviting me to testify about the 
challenging realities facing families as they try to make sure that 
their children get a strong start in life.
    I was asked to talk about where children are being cared for, the 
challenges their families face, and the key policy issues that should 
be considered to address these problems.
Where are our children being cared for?
    Today, whether by choice or necessity, child care and early 
education settings are a reality for millions of American families with 
young children. Many working families must find someone to care for 
their children while the parents work, and seek a safe nurturing and 
learning environment for that purpose. And many families, regardless of 
their work status, seek out early care and education programs as their 
children approach the kindergarten years because they want to help 
prepare them for school. As a consequence, according to the National 
Center for Education Statistics, today we find 12.4 million children 
younger than 6--or 60 percent of all children--are regularly in the 
care of someone other than their parents.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Education, National Center for Education 
Statistics, National Household Education Surveys Program, http://
nces.ed.gov/programs/digest/d07/tables/dt07--042.asp.
---------------------------------------------------------------------------
    These children can be found in a range of different early care and 
education settings. For example, 36 percent of all children younger 
than age 6 are regularly in center-based care, 15 percent are primarily 
being cared for by relatives, and 11 percent are being cared for by 
nonrelatives in home-based settings. However, this picture is somewhat 
oversimplified, as it provides a static picture of the main arrangement 
that children use. In reality, families can end up frequently changing 
the care arrangements they use for any child over the child's early 
childhood years--and such changes can be more common and frequent for 
low-income families and families in the welfare system (Adams, Tout, 
and Zaslow 2007). Furthermore, children can be in more than one 
arrangement at a time. Census Bureau data from 2005 estimate that 17 
percent of children have multiple child care arrangements (U.S. Census 
Bureau 2007).
    The care arrangements that families make for their children are the 
result of several interacting factors, including what the family wants, 
what they can afford, what kinds of settings are available (either in 
their family or in their community), and what fits their work 
schedules, child's needs, transportation, and so forth. Child care 
decisions are an extraordinarily complex blend of preferences and 
constraints, each of which plays out differently for each family 
depending on their unique circumstances. And while many parents face 
significant constraints in being able to get what they want, certain 
families face even more constraints--for example, if they are low-
income, have a child with special needs, live in a rural or inner-city 
area where the supply of programs can be low, have a very young child, 
or work a non-standard work schedule.
    While this seems complicated, it can be boiled down to a few key 
points:
    <bullet> Children experience a variety of early care and education 
arrangements, all of which can affect their development. As a result, 
policy efforts cannot afford to focus on one setting and none can be 
ignored.
    <bullet> We also have to pay attention to the range of factors that 
constrain families from making the best choices they can for their 
children. For example, to ensure that families have access to good 
quality care, we must not only work to make care affordable, but also 
focus on enhancing the supply of good quality care.
    <bullet> Finally, the complexity of the situation means that there 
are not simple solutions to how best to support parents, so we must 
avoid thinking that there is a single program or approach that is the 
solution to the problem. Instead, it is important to continue to work 
comprehensively to accomplish shared goals for all families.
    Are children getting what they need in early care and education 
settings?
    In recent decades, those interested in the well-being and 
development of children have increasingly focused on the quality of 
early care and education. Their interest is due to the growing and 
well-established body of research showing that the quality of the early 
care and education experiences matters for children's development, that 
it can support higher achievement and good outcomes, and that it may be 
of even greater importance for children who are at most risk of poor 
developmental outcomes (Adams et al. 2007).
    However, the research also makes it clear, unfortunately, that 
generally the quality of care that children receive in our country is 
not adequate. A recent synthesis of the research in this area conducted 
by the Urban Institute and Child Trends pulls together the leading 
research in this area and describes the quality of the two major types 
of care that exist--first, ``market-based'' child care, which includes 
all of the child care programs and settings that have developed in 
response to parent demand (including most child care centers and family 
child care homes) and that are based on parents ability to pay; and 
second, ``program-based'' early care and education settings, which 
include settings that were developed and funded by public programs such 
as Head Start and state prekindergarten (Adams et al. 2007). The latter 
settings are generally mostly (or totally) paid for by public funds, do 
not rely on parent fees, and are usually designed to provide a 
particular quality of care.
    Today, I am going to focus only on the studies examining the 
quality of ``market-based'' settings. For these settings, existing 
research suggests that ``much of the care in the United States falls 
below a rating of `good' on widely used observational measures. 
Further, different studies suggest that about 10-20 percent of market-
based child care settings have low overall ratings of quality, and may 
be potentially harmful to children's development'' (Adams et al. 2007, 
pg vii). Research also suggests that overall, children from lower-
income families and children ages birth to three may be particularly 
likely to be in market-based child care settings that do not meet their 
developmental needs.
    The fundamental cause of this finding is important to understand. 
Basically, a primary challenge we face is that the amount that 
``market-based'' child care programs charge for their services is 
primarily dependent upon what families can pay. However, many of the 
key components needed for a program to provide good quality are not 
cheap to provide--for example, paying salaries sufficient to attract 
and keep well-trained teachers, having small numbers of children per 
adult so they can get the attention and focus they need, and good 
materials and facilities. As a result, the cost of high quality care 
can be completely unaffordable for many parents, and the cost of even 
the inadequate quality that currently exists requires parents to 
stretch themselves to pay it. Data from the Census Bureau (2007), for 
example, show that families below poverty who are paying for care pay a 
remarkable 27 percent of their income for care, and those between 100 
and 200 percent of poverty pay 16 percent of their income on child 
care.
    The consequence of this situation is that generally providers must 
provide services at prices lower than are needed to provide high 
quality care--a problem even more severe in lower-income communities 
where families have fewer resources to pay for care. While some 
providers manage to provide quality services because they either serve 
higher-income families or can access other resources from public or 
private sources, there are many providers who are struggling to provide 
the best care they can but who simply cannot provide high quality 
because they cannot charge the prices they need to do get the revenue 
needed to produce the quality children need. The bottom line is that 
the child care market simply does not work in a way that produces 
enough good quality care for children.
What is the status of our policy framework to address these problems?
    In recent decades, policymakers have become increasingly aware of 
these issues, and of the importance of investing in early childhood and 
child care, and have made significant steps forward in this area. The 
most recent evidence can be seen in the American Recovery and 
Reinvestment Act (ARRA) of 2009, in which Congress invested significant 
additional resources into both the Child Care and Development Block 
Grant (CCDBG) and Head Start in an important commitment to children. 
But unfortunately there is still more work to do.
    One challenge is that despite the increasing policy interest and 
awareness of the importance of investing in good quality early 
education services, most of the efforts to invest seriously in helping 
families access good quality care have focused primarily on Head Start 
and prekindergarten services as the delivery mechanisms. The good news 
is that these efforts have indeed produced good programs for children, 
particularly when provided the funding and incentives needed to support 
quality. However, while it is important to keep investing in, and 
expanding these initiatives--as they only serve a fraction of the 
eligible families--it is also important to realize that our focus on 
primarily supporting quality through these programs has inadvertently 
created a somewhat patchy system of quality, with some major gaps. 
Specifically:
    <bullet> Both of these initiatives primarily serve three- and four-
year olds, with the exception of the very small Early Head Start 
program. This means that our youngest and most vulnerable children have 
few resources focused on ensuring that they get good quality care. This 
is despite the strong research base showing the critical importance of 
the earliest years in establishing a foundation for future learning, as 
well as the previously mentioned research of the significant gaps in 
quality for this age group. The expansion of Early Head Start (EHS) in 
the stimulus package is an important step. However, EHS currently 
serves 3 percent of the eligible children, so has a way to go before it 
will be able to address the gaps identified here.
    <bullet> Both Head Start and prekindergarten initiatives most 
commonly are offered on a part-day, part-year basis, and thus are less 
accessible to working families. Given the large proportion of low-
income parents who are working or need to work, and whose children are 
at risk of facing additional challenges in school, this gap means that 
our investments in early education programs are potentially missing 
significant proportion of the children we most need to reach. Consider, 
for example, the children of families that are on the Temporary 
Assistance for Needy Families (TANF) program and trying to meet the 
work participation requirements. These are exactly the children who we 
would most want to get these kinds of intensive quality services, yet 
the part-day, part-year nature of the services make them less likely to 
be able to use them.
    <bullet> Finally, both of these programs are primarily provided in 
selected group center-based settings, meaning that while these settings 
or classrooms are likely to provide better care, these programs cannot 
directly support quality for the rest of the settings that care for 
children.
    On the other hand, the Child Care and Development Block Grant 
(CCDBG) is the major federal program that reaches each of these 
groups--specifically, it serves children from birth through age 12, 
supports low-income working families, and is used in a wide range of 
the early care and education settings used by families. The growing 
awareness of policymakers of the importance of helping working families 
to afford care has led the program to grow since its inception, and 
most recently to get additional resources in the stimulus package. The 
CCDBG has been quite effective at helping millions of families across 
the country afford child care so that they can work.
    Yet this program also has major challenges in terms of helping 
families get what they really need for their children, specifically:
    <bullet> The CCDBG is primarily designed to help families afford 
child care settings that they can find in their communities--which are, 
in turn, those exact settings that were described above as being less 
than ``good'' due to market forces. While the CCDBG does have some 
funds designed to address quality, the bulk of the program resources 
are not designed to improve quality, and the CCDBG is not funded 
sufficiently to provide the level of resources and quality supports 
needed to bring local child care programs up to the level of what 
children need (Adams and Rohacek 2002). This is corroborated by the 
research, which suggests that the child care that families access with 
the voucher-based subsidy system under the CCDBG is no better than, and 
in some cases is worse than, child care settings overall (Adams et al. 
2007).
    <bullet> Furthermore, the funding levels of the CCDBG have limited 
its effectiveness even as a work support, which is the primary goal 
that it is supposed to achieve. For example,
    <bullet> While the estimates vary, the CCDBG only serves a fraction 
of the eligible families, and there are eligible families that need 
assistance but are not able to obtain it.
    <bullet> While public funding always is constrained and forces 
tradeoffs, the funding levels of the CCDBG have required states to 
restrict eligibility in a number of ways, including for families 
looking for work, or in education and training. This is particularly 
unfortunate given the importance of these efforts in helping families 
find work and the particular importance of these efforts in the current 
economy.
    <bullet> Research by the Urban Institute has shown how subsidy 
policies and practices can inadvertently create barriers to families to 
be able to initially get subsidies, and to keep them once they get 
them. In particular, the inadequate resources have helped pressure 
states to maintain very tight controls on eligibility, with the result 
that the system does not always help parents stay attached to the 
workforce as they experience the dynamic work and life situations 
common for low-income workers (Adams, Snyder, and Sandfort 2002). This 
is of particular concern as families face the enormous challenges of 
the current economic downturn.
    A number of states are working to address these issues. One example 
is Pennsylvania, under the leadership of Harriet Dichter and her team, 
which has made impressive strides forward; and other states have taken 
important steps to address some of these problems (Adams, Snyder, and 
Banghart 2007). But the bottom line is still that with the overarching 
problem of inadequate resources, states are seriously constrained in 
how much they can do. Discussions with state administrators often focus 
on the extremely painful Solomon-like tradeoffs they must make in 
deciding whether to make families pay more, pay providers even less, or 
serve fewer families. These are not abstract policy choices and 
tradeoffs--instead, they seriously undercut the ability of the program 
to achieve its goals, and create serious problems for families and 
providers.
    And of course, these systems do not operate in isolation from each 
other. While many individuals are working hard to put them together to 
provide the best package of services to families, the inadequacies of 
one can limit the other. For example, the Urban Institute is conducting 
a study in Chicago, looking at the extent to which families face 
barriers accessing the Illinois Preschool for All (PFA) initiative. The 
initiative is a good one, and is one that addresses many of the issues 
that policymakers care about, and the state is committed to making it 
available to all families. The core funding for the program is for 2.5 
hours a day, so the state has worked to make sure that working families 
can access prekindergarten services by making sure that community-based 
child care programs receive PFA funds and offer PFA services. Yet 
because working families still have to pay for the rest of the child 
care day, they are only able to access the program if they are also 
able to get CCDBG-funded subsidies--as these subsidies are what allow 
them to enroll their child in the child care program that includes a 
PFA component. As a result, anything that may create a barrier for a 
working family to access subsidies also makes it hard for them to 
access PFA.
So what do we do?
    There are many issues that need our attention, a number of which 
have been highlighted by the other panelists testifying in recent days. 
I'd like to focus on three that seem particularly critical for 
sustained federal attention. Specifically,
    <bullet> Our policies must focus across the age spectrum from birth 
to age 5, as children's needs for good care that supports their full 
development does not start at age three or four, and in fact, there is 
a serious gap in what children can get in their earlier years which is 
likely to have serious repercussions for their development and success;
    <bullet> One of the major gaps in our current approach is that we 
need to develop, sustain, and invest in efforts that focusing on 
supporting the ability of working families to access high quality 
services; and
    <bullet> It is critical to identify mechanisms to strengthen the 
quality of the range of settings that serve families.
    One important way to make progress in these areas is to strengthen 
the child care subsidy system as funded by the CCDBG. This program is 
the only federal effort that focuses on the wider age spectrum, focuses 
on serving working families, and touches a wide spectrum of early care 
and education settings. By focusing my comments on the CCDBG, I am by 
no means trying to suggest that the other early care and education 
areas do not also need attention and investments, or that we do not 
need to focus significant efforts on helping these systems coordinate 
more effectively. Instead, my focus on the CCDBG is because too often 
the policy debate about how to best ensure school readiness does not 
focus sufficiently on how to do so for the millions of young children 
who are in market-based settings supported by the CCDBG every day.
    Strengthening and reforming the CCDBG to allow the program to focus 
more on supporting the ability of low-income families to access good 
quality care would require a significant and sustained investment of 
new resources into the program, as well as the development of policies 
that more directly make supporting quality through every aspect of the 
program a priority. Rather than focusing solely on work, it is 
essential that we integrate a focus on child development and school 
readiness into the core funding of the program, and to identify ways 
that CCDBG can focus equally on improving the affordability, access, 
and quality of the early childhood settings that low-income working 
families need.
    In conclusion, I commend the Committee and Subcommittee on their 
continued efforts on behalf of the children of the United States. It is 
critically important that we build upon the significant progress of the 
last decades, and take the steps necessary to ensure that our public 
funds are spent to help families ensure that their children are safe, 
nurtured, and learning--in particular, our youngest and most vulnerable 
children for whom these investments are the most effective. We cannot 
afford to delay. Every day, there are children missing out on 
developmental opportunities that mean that they start school further 
behind, and with less of the foundation blocks they need to have in 
place if they are to become the productive involved citizens that we 
need.

                               REFERENCES

Adams, Gina, and Monica Rohacek. 2002. ``More Than a Work Support? 
        Issues around Integrating Child Development Goals into the 
        Child Care Subsidy System.'' Washington, DC: The Urban 
        Institute. http://www.urban.org/url.cfm?ID=1000449.
Adams, Gina, Kathleen Snyder, and Patti Banghart. 2008. ``Designing 
        Subsidy Systems to Meet the Needs of Families: An Overview of 
        Policy Research Findings.'' Washington, DC: The Urban 
        Institute. http://www.urban.org/url.cfm?ID=411611.
Adams, Gina, Kathleen Snyder, and Jodi Sandfort. 2002. ``Getting and 
        Retaining Child Care Assistance: How Policy and Practice 
        Influence Parents' Experiences.'' Washington, DC: The Urban 
        Institute. http://www.urban.org/url.cfm?ID=310451.
Adams, Gina, Martha Zaslow, and Kathryn Tout. 2007. ``Early Care and 
        Education for Children in Low-Income Families: Patterns of Use, 
        Quality, and Potential Policy Implications.'' Washington, DC: 
        The Urban Institute. http://www.urban.org/url.cfm?ID=411482.
U.S. Census Bureau. 2007. ``Who's Minding the Kids? Child Care 
        Arrangements: Spring 2005.'' Suitland, MD: U.S. Census Bureau. 
        http://www.census.gov/population/socdemo/child/ppl-2005/
        tab01A.xls and http://www.census.gov/population/www/socdemo/
        child/weeklychldcare.xls.

    The Urban Institute is a nonprofit, nonpartisan policy research and 
educational organization that examines the social, economic, and 
governance problems facing the nation. The views expressed are those of 
the author and should not be attributed to the Urban Institute, its 
trustees, or its funders.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Ms. Adams.
    Dr. Lowery?

STATEMENT OF LILLIAN LOWERY, SECRETARY, DELAWARE DEPARTMENT OF 
                           EDUCATION

    Ms. Lowery. Thank you. Mr. Chairman, Congressman Castle and 
members of the committee, thank you--did not push my button.
    Thank you, good morning. Mr. Chairman, Congressman Castle, 
members of the committee, thank you for this opportunity to 
share Delaware's early childhood plan. I am Lillian Lowery, 
secretary of education for the State of Delaware.
    Delaware recognizes that what children experience from 
birth to age 5 has a direct impact on their future success in 
school and in life. As we have learned more about the 
importance of brain development during the early years, there 
has been a renewed commitment to work together in public-
private partnerships to increase the number of children 
entering school prepared to succeed. Through strong leadership, 
federal, state, corporate and private resources have been 
blended to develop a combination of universal and targeted 
programs which provide support from birth through kindergarten.
    For example, the parents of every baby born in Delaware 
receive the Growing Together portfolio--and I, too, have copies 
for you--a collection of valuable information ranging from a 5-
year calendar customized with Delaware contacts to a read-aloud 
book to start early literacy. For first-time parents, there is 
a targeted service with a home visit by a nurse soon after the 
baby comes. The nurse links at-risk families to additional 
supports such as Parents as Teachers program, a monthly home 
visit from birth to age 3 by certified parent educators.
    The state-funded Early Childhood Assistance Program adds to 
the capacity of the federally funded Head Start to guarantee a 
quality preschool program for every 4-year-old in poverty. 
Through similar state and federal support, children with 
disabilities from birth to 5 receive preschool special 
education specifically crafted to help prepare them for success 
in school. Both of these targeted programs, for children in 
poverty and those with disabilities, have been evaluated 
through a longitudinal study.
    Begun in 1997 as the children entered kindergarten, the 
study compared children in poverty who had participated in the 
Early Childhood Assistance/Head Start program to a like sample 
of economically disadvantaged students who had not participated 
in the program, and children with disabilities who were 
identified during early childhood and received early 
intervention services to children who were not identified as 
special education students until after entering public school. 
In this longitudinal study, three points of measurement--third, 
fifth and eighth grade assessments--were analyzed for students' 
academic outcomes.
    As measured over time at all three grade levels, the 
students who had received early intervention services 
demonstrated markedly better outcomes than students who had not 
received those interventions. From the most recent analysis at 
eighth grade, the following results are examples of success 
rates: 73 percent of the students in poverty who participated 
in Early Childhood Assistance/Head Start program performed at 
or above standard in reading compared to 51 percent who had not 
participated in the program; 43 percent of students who 
received preschool education for special ed students performed 
at or above the standard in reading compared to 31 percent who 
had not received such services.
    State dollars have been leveraged to gain corporate and 
private funds to carefully develop, pilot and implement the 
Delaware Stars for Early Success rating program, which 
establishes quality standards for early childhood program 
providers connecting them with technical assistance, training 
and limited financial support as programs engage in quality 
improvement efforts.
    Full-day kindergarten is another important component of 
Delaware's expanded efforts to ensure academic preparedness and 
success for all children. State funding for full-day 
kindergarten has increased each year with almost all public 
elementary schools offering this to families and communities.
    On another front, like many states, as I just heard 
Pennsylvania state, Delaware has worked hard to cooperate 
across state agencies on behalf of young children. The three 
primary departments which have responsibility for a variety of 
early childhood services--Education, Health and Social 
Services, and Services to Children, Youth and Their Families--
established one central Office of Early Childhood and then the 
Delaware Early Childhood Council.
    The council is responsible for providing oversight of the 
development and implementation of Early Success: Delaware's 
Early Childhood Plan. Early--excuse me--Early Success is a 
comprehensive plan to ensure that across the state young 
children and their families have access to quality early 
learning programs and services.
    Supporting the goals of Early Success, Early Learning 
Foundations program guides have been developed for early 
childhood in alignment with the K-12 kindergarten expectations. 
Likewise, the social and emotional development program for 
young children, Partners in Excellence, has been connected with 
the K-12 Positive Behavior Support program. The Department of 
Education provides the formal review and certification of early 
childhood providers' staff qualifications and is currently 
working on a Web-based modification of an online database for 
teacher certification that will include the early childhood 
workforce.
    Finally, the Department of Education has developed a 
framework for professional development that outlines the 
expectations and intensity of training opportunities for early 
childhood. The framework helps practitioners in making informed 
choices for their professional development experiences.
    The department recently awarded a multi-year grant to the 
University of Delaware for a new Institute for Excellence in 
Early Childhood to develop and offer the state-recommended 
training in the framework. The institute will develop, in 
collaboration with other educational organizations, a variety 
of state-recommended professional development opportunities to 
meet the identified needs of all sectors of the early childhood 
field.
    Thank you for this opportunity.
    [The statement of Ms. Lowery follows:]

            Prepared Statement of Lillian Lowery, Secretary,
                    Delaware Department of Education

    Delaware recognizes that what children experience from birth to age 
five has a direct impact on their future success in school and life. As 
we have learned more about the importance of brain development during 
the early years, there has been a renewed commitment to work together 
in public/private partnerships to increase the number of young children 
entering school prepared to succeed. Through strong leadership, 
federal, state, corporate and private resources have been blended to 
develop a combination of universal and targeted programs and supports 
from birth through kindergarten. For example, the parents of every baby 
born in Delaware receive the Growing Together portfolio, a collection 
of valuable information ranging from a five year calendar customized 
with Delaware contacts to a Read Aloud book to start early literacy. 
For first time parents, there is a targeted service with a home visit 
by a nurse soon after the baby comes home. The nurse links at-risk 
families to additional supports such as the Parents as Teachers 
program, a monthly home visit from birth to age three by certified 
parent educators.
    The state-funded Early Childhood Assistance Program (ECAP) adds to 
the capacity of federally-funded Head Start to guarantee a quality 
preschool program for every four year old in poverty. Through similar 
state/federal support, children with disabilities from birth to five 
receive preschool special education (PSE) specifically crafted to help 
prepare them for success in school. Both of these targeted programs, 
for children in poverty and those with disabilities have been evaluated 
through a longitudinal evaluation. Begun in 1997 as the children 
entered kindergarten, the study compared children in poverty who had 
participated in the ECAP/HS program with a like sample of poor children 
who had not participated and children with disabilities who were 
identified during early childhood and received early intervention 
services with children identified as special education students after 
entering the public school system. In this longitudinal study, three 
points of measurement (3rd, 5th and 8th grades) were analyzed for 
students' academic outcomes. As measured over time at all three grade 
levels, the students who had received early intervention services 
(ECAP/HS or PSE interventions) have shown markedly better outcomes than 
students who did not receive those interventions. Students in the 
intervention groups significantly outperformed students who did not 
receive intervention. From the most recent analysis at 8th grade, the 
following results are examples of the success rates:
    <bullet> 73% of the students in poverty who participated in ECAP/HS 
performed at or above the standard in reading compared to 51% who had 
not participated in ECAP/HS
    <bullet> 43% of the students who received preschool special 
education performed at or above the standard in reading compared to 31% 
who had not received such services
    To improve the quality of early care and education for all young 
children, state dollars have been leveraged to gain corporate and 
private funds to carefully develop, pilot and implement the Delaware 
Stars for Early Success rating program. Delaware Stars has established 
quality standards for early childhood program providers connecting them 
with technical assistance, training and limited financial support as 
programs engage in quality improvement efforts. Delaware Stars for 
Early Success is a five level system, with ``5'' being the highest 
rating. The licensing rules issued by the Office of Child Care 
Licensing serve as the Standards for Star Level 1. With each higher 
Star Level, a program is required to meet increasingly higher quality 
Standards in the following categories:
    <bullet> Qualifications and Professional Development
    <bullet> Learning Environment and Curriculum
    <bullet> Family and Community Partnerships
    <bullet> Management and Administration
    Subsidized child care reimbursement rates have improved, and the 
goal is to tie those rates to Delaware Stars quality ratings as 
additional resources become available. In 2005, the Legislature 
increased its focus on early learning by creating the Kids Caucus, a 
bipartisan group of legislators focused solely on young children and 
their growth, development and learning. During the last legislative 
session, the Kids Caucus successfully championed legislation to 
increase outreach for the Children's Health Insurance Program to 
students receiving free or reduced price meals in their schools.
    Full-day kindergarten is another important component in Delaware's 
expanded efforts to ensure academic preparedness and success for all 
children. State funding for full-day kindergarten has increased each 
year with almost all public elementary schools offering this to 
families in their communities.
    On another front, like many states, Delaware has worked hard to 
cooperate across state agencies on behalf of young children. The three 
primary Departments which have responsibility for a variety of early 
childhood services (Education; Health and Social Services; and Services 
to Children, Youth and their Families) established one central Office 
of Early Childhood within the Dept. of Education which is staffed by 
personnel funded through the three Departments and charged with 
interagency collaboration and efficiencies. Also, in October 2001, the 
Governor established the Delaware Early Care and Education Council. The 
Council is responsible for providing oversight of the development and 
implementation of Early Success: Delaware's Early Childhood Plan. The 
membership of the Council comes from the early care and education 
community, businesses and private citizens.
    Early Success is a comprehensive plan to ensure that across the 
state young children and their families have access to quality early 
learning programs and services. The five goals of Early Success are as 
follows:
    1. Ready Children: By the year 2015, all of Delaware's young 
children will have available the supports they require to ensure that 
they are physically, socially and emotionally healthy. Early learning 
opportunities will be available to every child at home and in programs 
that are developmentally appropriate and individualized. It is 
important to ensure that every child's development is progressing. 
Child assessment for early identification of developmental challenges 
or disabling conditions is essential. Early intervention is critical 
for remediation of developmental delays and readiness for school.
    2. Ready Families: By the year 2015, families of young children in 
Delaware will have the support and education needed to support their 
children's healthy growth, development, learning and readiness for 
school. Families are significant partners in creating a culturally 
competent comprehensive and integrated early learning system. Families 
are the primary influence on their children. All other components of 
the early learning system must support the families of young children 
to be successful.
    3. Ready Early Care and Education Programs: By the year 2015, all 
of Delaware's families will have access to early care and education 
programs that will offer families a safe learning environment that will 
ensure positive outcomes for children. Early care and education 
programs will be staffed by professionals educated and skilled in 
supporting the growth, development, and learning of young children. 
Programs will be regulated to ensure basic safeguards for children, 
both physical and developmental.
    4. Ready Communities: By the year 2015, Delaware citizenry will 
understand the importance of the children's growth, development and 
learning during the first five years and be willing to support and 
invest in creating an early childhood system. The early childhood 
system will be a durable, normalized component of the state budget, 
corporate investments, and community giving. Public will, governance 
and finance together create a community that is willing and prepared to 
support the early childhood system. Communities will work together to 
design and build localized solutions to support their young children 
and families.
    5. Ready Schools: By the year 2015, the schools and the early 
learning community will forge meaningful, productive relationships that 
support children and their families.
    Supporting the goals of Early Success, Early Learning Foundations 
program guides have been developed for early childhood in alignment 
with the K-12 kindergarten expectations. Likewise, the social and 
emotional development program for young children, Partners in 
Excellence (PIE), has been connected with the K-12 Positive Behavior 
Support (PBS) program. Just as the K-12 system works to prepare 
children for college and the workforce, the early learning system works 
to prepare children for their school years. Connecting the systems and 
successfully facilitating the transition for children and their 
families between the two systems is important to the success of both 
early learning and K-12.
    The current report of Delaware's Early Childhood Council highlights 
recent collaborative efforts to achieve the goals of Early Success. 
They are provided here to emphasize the importance of strategic public 
and community partnerships and to illustrate the broad scope of work of 
the Council and the Office of Early Childhood.
I. Ready Children
    Emotional Wellness Committee:
    <bullet> Began work in August, 2008
    <bullet> Included representation from multi-agencies and multi-
disciplines
    <bullet> Mission Statement: To develop a systemic framework to 
support the emotional wellbeing of young children and their families
    <bullet> Focused on specific tasks including: mapping resources, 
identifying gaps in resources and services, establishing standards for 
practice and identifying priority areas needed for the systematic 
promotion of emotional wellness in the state
    United Way of Delaware Success By 6(tm):
    <bullet> Partnered with the Department of Education to give 
leadership to Emotional Wellness Committee
    <bullet> Continued commitment to improving the quality of early 
care and education by financially supporting Delaware Stars and serving 
as a member of the public/private management team--specific 
responsibilities related to leading the coordination of private 
resource development, serving as fiscal agent for private funds, and 
providing leadership on building public will
    <bullet> Partnered with Nemours Health & Prevention Services to 
conduct a parenting needs assessment
    <bullet> Partnered with Family Support Coordinating Council for 
that Council to begin functioning as the advisory body for Success By 
6TM's work related to supporting families
    Early Childhood Comprehensive System Grant:
    <bullet> Focused on developing, implementing and sustaining 
comprehensive early childhood programs through collaborative 
partnerships and systems building initiatives
    <bullet> Funded the KIDS COUNT in Delaware Indicators for Early 
Success issue brief
    <bullet> Provided funding to host a series of educational trainings 
on topics promoting the importance of the medical home, family-centered 
primary care and newborn hearing screenings
    Nemours Health and Prevention Services:
    <bullet> Collaborated with the Delaware Child and Adult Care Food 
program to set higher nutrition standards for foods qualifying for 
reimbursement
    <bullet> Implemented a Child Care Learning Collaborative to test 
out a new approach to training, focused on helping centers make policy 
and practice changes to promote healthy eating and physical activity
    <bullet> Supported a statewide quality rating system, Delaware 
Stars for Early Success.
    <bullet> Initiated a pilot study for improved screening for 
developmental delays in primary care pediatrics--Assuring Better Child 
Health & Development (ABCD) project
II. Ready Families
    Family Support Coordinating Council:
    <bullet> Supported the submission of a federal grant Supporting 
Evidence-Based Home Visitation Programs to Prevent Child Abuse
    <bullet> Adopted a model that describes the future path of the 
council; the goal of this model is to establish the resources and 
supports needed to nurture strong families in Delaware
    <bullet> Sponsored the Parent Practitioner Partnership Summit held 
on May 14, 2008 which addressed partnerships between parents and 
practitioners in healthcare, education and human services to improve 
child outcomes
III. Ready Early Care and Education Programs
    T.E.A.C.H. Early Childhood(r):
    <bullet> Provided scholarships to 136 individuals
    <bullet> Worked in conjunction with other initiatives (i.e. 
Delaware Stars) to increase the quality of early childhood programs 
through increased education for early childhood professionals
    Delaware First: Early Childhood Professional Development System
    <bullet> Developed a Framework for Professional Development that 
outlines the expectations and intensity of training opportunities for 
the early childhood
    <bullet> Awarded a grant to the University of Delaware for the 
creation of the Delaware Institute for Excellence in Early Childhood
    <bullet> Provided the formal review and certification of early 
childhood staff qualifications
    Delaware Stars for Early Success:
    <bullet> Completed the second year of ``testing'' the Delaware 
Stars system
    <bullet> Enrolled in 69 child care programs including all three 
counties; small and large centers; family child care and large family 
child care homes; before and after school programs; programs that serve 
infants and toddlers, children with special needs, and children whose 
primary language is other than English; Head Start and ECAP programs; 
and NAEYC accredited programs
    <bullet> 46 of the enrolled programs are serving children and 
families of low-income.
    <bullet> Served more than 5,000 children and their families in 
Delaware Stars programs
    Relative Care Training Program:
    <bullet> 600 Relative Caregivers have received training information
    <bullet> 178 Relative Caregivers have attended training
    <bullet> 42 Relative Caregivers have completed all 45 hours
    <bullet> Provided training and technical assistance in three sites 
that have been designed on a framework of program wide change 
consistent with the PBS system used in schools
    <bullet> Supported a training of trainers on the Parent Modules
    <bullet> Developed and piloted an approach that provides continuity 
to the systems that care for and educate young children in Delaware
    Partners in Excellence (PIE) Project:
IV. Ready Communities
    Social Venture Partners Delaware:
    <bullet> Gave more than $2.5 million toward the improvement of 
early childhood education in the state of Delaware since its inception
    <bullet> Partnered with A.I. duPont Hospital for Children; this 
five-year partnership places psychology residents in early care centers 
to provide year round behavioral health management for at-risk children 
and families
    <bullet> Invested in a curriculum development specialist to train 
teachers and administrators in inner-city child care centers how to 
properly prepare their children for kindergarten
    Coalition for Early Learning:
    <bullet> Members testified at the Department of Health and Social 
Services budget and Joint Finance Committee hearings
    <bullet> Planned successful Annual Early Childhood Advocacy Day
    <bullet> Worked with the Kids Caucus to codify Delaware Stars for 
Early Success into law
    <bullet> Worked with Kids Caucus to gain support for Purchase of 
Care reimbursement rate increases, rates indexed to bi-annual market 
rate study and rates tiered according to star ratings
    Delaware Children's Campaign: The Delaware Children's Campaign 
(DCC) is a nonpartisan nonprofit organization that offers a different 
approach to child advocacy. What makes DCC different from other efforts 
is its use of public opinion data to identify issues relating to 
children that are of concern to Delawareans. Our polling along with the 
input of or platform committee helped us determine the DCC's agenda:
    <bullet> Reduce the infant mortality/morbidity rate
    <bullet> Increase assistance for youth aging-out of foster care
    <bullet> Ensure quality early education is available to all 
children DCC is dedicated to improving access to quality early care and 
education by building public awareness and grassroots support. Campaign 
staff works to educate and engage citizens, media and policy makers 
regarding the societal cost savings of quality/consistent delivery of 
early education programming. Wilmington Early Care and Education 
Council (WECEC):
    <bullet> Engaged members and community volunteers--``Friends of the 
Council''
    <bullet> Represented early care and education programs throughout 
the City of Wilmington and community based organizations
    <bullet> Assisted with planning and executing special events
    <bullet> Met at the new City of Wilmington Parks and Recreation 
building
    <bullet> Worked with the City webmaster www.wecec.org to the City 
of Wilmington web site Sussex Early Childhood Council (SECC)
    <bullet> Spent time developing its mission and purpose--The Mission 
of SECC is to foster collaboration among families, communities, 
providers, and schools for children's early success in Sussex County
    <bullet> Represented child care providers, human service agency 
representatives, parents, home visitors, school district 
representatives, and others interested in young children and families 
in Sussex County
V. Ready Schools
    Delaware After-School Alliance (DEASA)
    <bullet> Public-private partnership that endorses the goal of all 
school age children being academically, socially, culturally and 
physically healthy
    <bullet> Worked on building bridges that link schools, communities, 
and families through policy development and partnership engagement with 
other agencies
    <bullet> Involved itself in many key efforts over the last year 
that address the common moral, social and educational concerns of 
Delaware's citizenry, not the least of which were the Governor's 
Dropout Prevention Summit and the Governor's Expanded Learning 
Opportunities Summit
    I'd like to close my remarks by sharing two of Delaware's most 
recent efforts to increase quality in our early learning system. In a 
new responsibility shifted to the Office of Early Childhood, the 
Department of Education (DOE) provides the formal review and 
certification of early childhood providers' staff qualifications. Early 
childhood practitioners make application for review of qualifications 
and in 2008, DOE staff reviewed more than 3,000 applications on the 
education and experience of individuals using the specifications of the 
child care licensing (Delacare) rules. The Department is currently 
working on a web-based modification, which will be ready by fall 2009, 
of the online database for teacher certification that will include the 
early childhood workforce.
    And finally, DOE has worked on the development of a Framework for 
Professional Development that outlines the expectations and intensity 
of training opportunities for early childhood. The Framework helps 
practitioners in making informed choices for their professional 
development experiences. The Department recently awarded a multi-year 
grant to the University of Delaware for a new Institute for Excellence 
in Early Childhood to develop and offer the state recommended training 
in the Framework. The Institute will develop, in collaboration with 
other education organizations, a variety of state recommended 
professional development opportunities to meet the identified needs of 
all sectors of the early childhood field. The Institute will provide 
quality assurance to the consumer by closely monitoring the delivery 
and making sure that the content of training is research based and 
aligned with state standards for the field.
                                 ______
                                 
    Chairman Kildee. Thank you very much for your testimony. 
Thank you all for your testimony.
    The rules of the committee adopted January 21st, 2009, give 
the chair the discretion on how to recognize members for 
questioning. It is my intention as chair of this subcommittee 
to recognize those members present at the beginning of the 
hearing in order of their seniority on this subcommittee. 
Members arriving after the hearing began will be recognized in 
order of appearance.
    I now recognize myself for 5 minutes.
    Ms. Adams, how important is stability in addition to 
quality to children in early care and education? In other 
words, what is the impact to children of having changing 
arrangements?
    I ask that because back in 1987, we had hearings on ABC. We 
found, not just occasionally--we found some mothers or parents, 
within a week's time might have three, four or five different 
arrangements for child care and sometimes on Tuesday weren't 
sure what the arrangement would be on Wednesday. How important 
is that stability?
    Ms. Adams. It is a very good question. Stability is a 
critically important issue for children, having continuity of 
care. I mean, the way children develop a sense of trust of the 
world and know how to develop relationships is to have stable 
relationships.
    One of the important issues is that there are two different 
kinds of stability. For example, if you are always with your 
grandparents every afternoon and you are always in the Head 
Start program in the morning, that is still stability. What is 
instability is when you don't know from day to day which 
caregiver--you develop a relationship with one, then suddenly 
you leave the next day. Those are the things that we worry a 
lot about, where it is broken relationships, broken trust, and 
where children don't get the foundation that they need.
    One of the important issues is that when you look at many 
of the quality programs like Head Start and pre-k, they are 
focused on providing a child services for a year or 2 or 3 
years. That is stability; that is continuity. That allows the 
teachers to--if they don't have turnover--to develop 
relationships with the children.
    Part of the problem that we have in the child care world, 
for example on the block grant, is that the arrangements that 
are available to families fluctuate depending on their work 
situation; their subsidies may change if they change their job 
hours. There are a lot of ways that we don't, I think, think 
enough about stability within the block grant and support 
families having a stable care-giving situation.
    Chairman Kildee. What role and how important is a center-
based type of child care situation for the socialization of 
especially the young, the very young child?
    Ms. Adams. The recent research suggests that center-based 
care can be very important for children, depending on the 
quality, which is a big if, for the years right before they 
enter school. Part of the challenge that we face is that much 
of our workforce can't use center-based care necessarily 
because they may be working evenings, weekends, changing work 
hours. But there is some evidence that access to a good quality 
group setting for at least some period of time before children 
enter school can be an important socialization tool.
    Chairman Kildee. Thank you very much.
    Ms. Russell, can you describe in more detail how an early 
childhood program would come to participate in T.E.A.C.H. or 
WAGE$, who the partners might be and where the funding comes 
from?
    Ms. Russell. Early childhood programs can participate in 
states where we have T.E.A.C.H. or WAGE$, usually through an 
application process. So individuals will apply and they will 
say, ``I want to go back to school.'' They will apply. If there 
is funding, they will be eligible and they can go to school.
    Those teachers can work in a variety of settings. They can 
be a family child care provider, they can be a teacher in a 
classroom in a for-profit center, a not-for-profit, a faith-
based center. They can be working in Head Start or they can be 
working in a pre-k program. It really doesn't matter the 
setting, what matters is, is there funding to support them.
    So funding for T.E.A.C.H. comes from a variety of sources. 
About 61 percent comes from the block grant, and then the rest 
of the funding is cobbled together using state resources. And 
Harriet was talking a little bit about that. In North Carolina, 
we use state resources as well, coupled with block grant 
funding or even local funding. So it comes from a variety of 
places.
    The key is that there isn't enough of it. We have lots of 
states who would like to do T.E.A.C.H. scholarships, but they 
don't have the funds. And we have lots of folks within states 
where there are T.E.A.C.H. and WAGE$ programs who can't access 
it because of the lack of resources.
    Chairman Kildee. If there is a definition of adequate, at 
least adequate child care, what percentage of children in this 
country would be receiving that type of adequate childcare? 
[Laughter.]
    Anyone want to venture out into that? You know, we know at 
the time we passed ABC that the percentage wasn't very high and 
the situation was quite dire. I am just wondering how far we 
have moved since 1987.
    Ms. Adams. I don't think anybody can answer that question 
except for the number is far too low. I mean, the data that we 
have that are representative of multiple states are from back 
in the early 1990s so it doesn't do a good measure of looking 
at it now.
    But part of the problem, as I mentioned, is that one of our 
big investments, the block grant, which is a fabulous program 
in many ways, is not designed to change the quality of care. It 
is designed to help families access what is there. The quality 
set aside has got them wonderful things; T.E.A.C.H. and many of 
these initiatives came out of that. But that is 4 percent of 
the program. It is not going to be changing the entire 
marketplace with millions of children.
    So it has made significant changes in pockets, but it has 
not been enough to, I think, do a sustained change of the whole 
marketplace. That make sense?
    Chairman Kildee. Thank you, thank you very much.
    My time has expired.
    Governor?
    Mr. Castle. Thank you, Mr. Chairman.
    And, Ms. Adams, let me ask you a question. I believe in 
what we are doing here, but I worry about it sometimes in terms 
of some of the programs, et cetera. Are there studies or 
research showing how children who have been involved in early 
education developmental programs, the kind of programs we are 
talking about here today, do later in their education outcomes?
    And the reason I ask that is I remember when we did Head 
Start there were some witnesses who testified that there were 
no positive results when you got out to third, fourth, fifth 
grade, et cetera. And they were concerned that the programs 
either didn't have enough of an educational component or 
weren't working well enough. And I don't know if there is any 
research that would either contradict that or confirm that that 
you know about.
    Ms. Adams. Well, I think it is important to distinguish 
different kinds of research. There is certainly the research 
showing kind of the high-quality, intensive intervention 
programs like Abacedarian and Perry Preschool. Those kinds of 
investments have shown very long-term impact. They are usually 
funded and focused at a level that is beyond what our public 
resources have been able to sustain so far.
    There is also some suggestion--I think the National Head 
Start Impact Study has shown some impact over time, but we 
don't have it for very many years. I think they are about--next 
week, I think--to release the latest findings, which I believe 
go to third grade. I should know the answer because Urban 
Institute is part of that study, but I actually don't.
    So I think that there is long-term impact. Part of the 
question is dosage--how much children are getting and for how 
long. Often Head Start can be a part-day, part-year program for 
1 year.
    Harriet began her comments saying there was no silver 
bullet. If you are talking about children in extreme poverty, 
that is not going to be enough, which I think the investments 
in Early Head Start are so promising.
    I think we do know that when it is done right, it can have 
an impact. How you do that to scale is part of the job that 
many of you have been working on the last several years.
    Does that answer your question, sir?
    Mr. Castle. Well, I am not sure there is any easy answer, 
but it is a very good effort. That answer your question?
    Let me sort of ask a question, of any of you, that concerns 
me, and that is the family and parental involvement. We talk 
about these programs, whatever, and generally they are out of 
the home; not everybody can go to Dale Kildee's Head Start 
program.
    So there is a lot of time when children are going to be at 
home, and obviously the family involvement with that child is 
vitally important. And I worry about that a great deal.
    I mean, a child may do well in some sort of a preschool or 
a development Head Start-type program, whatever that may be, 
and they go home and they run into other kinds of problems. Can 
you tell me what you are doing in your areas or what you know 
about in terms of that parental, family involvement to engage 
the parents and to help?
    I mean, statistics have shown us constantly that parents 
who are motivated and well-educated generally will have 
children who are motivated and will become well-educated and 
vice versa. And that should be a concern to all of us--whatever 
help you can give me along those lines.
    Ms. Lowery. Congressman, I will begin--and you probably 
know as well as I, in Delaware the Early Success program has 
five components, and two components involve parental engagement 
and parental training, along with Parents as Teachers, but 
there is a component of training that is privately funded 
through such organizations in Delaware as Social Venture 
Partners and led by the Early Childhood Council, that any child 
who is participating in early childhood programs in the state 
of Delaware also have a parent who is asked to engage in the 
teaching and learning aspect, not only of the academic-aligned 
expectations but of the social and emotional expectations 
around behaviors as well.
    Mr. Castle. Thank you.
    Ms. Dichter. Let me add to that, and you raise a really 
critical point. I think we all know it is the adults together 
who influence the outcomes for the children. And so 
schematically and from a value perspective, it becomes very 
important for the early childhood programs to have excellent 
partnerships with parents.
    We actually built that into our standards. It doesn't 
strictly fit the definition of what a standard would be, but we 
said, ``This is too critical to leave this out; we have got to 
get everyone talking to one another and working well 
together.'' So we have a big stress on that.
    We actually are fielding now statewide for 100 percent of 
our programs a unified parent satisfaction survey to make sure 
we are collecting enough of the feedback and getting that back 
out to the programs. We prepare materials for programs to use 
with parents--as I mentioned, this is a calendar that is month-
by-month what you can do with your kids at home--and provide 
things.
    And I want to say anecdotally when we started just the pre-
k program--we hear this from our Keystone STARS parents as 
well--our parents come now and say, ``I am getting as much out 
of these programs as my children are.'' They are thrilled at 
what they see is happening for their kids, but because we have 
tried to put so much emphasis on a partnership between the 
programs and the parents, parents are really saying, ``This is 
a great asset for me.''
    I think you raise a very important point. It is very 
doable, though. You know, there does not--I try to think of it 
in this way. We are doing a tremendous favor to K-12 education 
if we can do the birth to 5-year right in terms of those 
relationships with parents and get everyone understanding it 
truly is a partnership for the kids.
    Mr. Castle. Okay, thank you.
    Ms. Adams. Could I add just one comment to that? I 
completely agree with both of these issues.
    The one other thing I think that we do need to start paying 
attention to as a country is the labor demands on families. 
Low-wage workers--it is very hard to participate in your 
child's program if you have the kinds of job demands and you 
don't have any flexibility to take time off.
    I just personally have noticed in changing schools recently 
how there are suddenly no parent volunteers, and it is a much 
more low-income set of families in my school. It is very hard 
to do that.
    I think we need to be thinking about how do we support 
parenthood in the low-wage workforce on the labor side. I don't 
have the right answer there, but thinking about work policies 
and workforce issues is very important.
    Mr. Castle. Let me thank you all very much for your 
testimony and for what you do.
    And I agree with you, Ms. Adams. I think we ought to start 
with Congress on a less work program so we can have more time 
at home. But somehow I don't think that is going to get done. 
There is a lot to be done around here.
    I yield back.
    Chairman Kildee. Thank you, thank you, Governor.
    For the information of the members, Dr. Lowery has to leave 
us at 11:30 for a Board of Education meeting, so please bear 
that in mind.
    It is my pleasure now to call upon the gentleman from Iowa 
who had a great victory on the floor of the House yesterday, 
Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair. And thanks for putting 
this hearing together. This is really a critically important 
issue.
    I am a mere sophomore here in Congress, but I had the 
pleasure in 2007 of participating in the reauthorization of 
Head Start and it was a real pleasure and honor to be a part of 
that. And I am really happy that we have obviously at the 
federal level put even more funding into that through the 
stimulus package, if you will, the Recovery Act. So I am really 
happy about those developments in recent years.
    I like this discussion about the role of parents, and I 
appreciate Mr. Castle bringing that up. I visited numerous Head 
Start programs in my district, the second district in Iowa, and 
I have always been impressed by the number of parents who have 
volunteered their time and in some cases it has actually been 
wonderful for those parents because they have gone on to become 
community leaders, in no small measure because of their 
involvement in Head Start with their children on a volunteer 
basis.
    And yesterday, we passed the GIVE Act, and that really is 
in no small measure intended to increase the number of 
volunteers in America for a lot of projects. In the case of 
Iowa most recently, it--near and dear to my heart, relating to 
the flood, the floods that we had in June and the recovery and 
rebuilding process.
    But, Ms. Adams, you mentioned the reduction in the number 
of volunteer hours, I guess, on the part of parents. Can you 
elaborate on that or any others on the panel elaborate on that 
a little bit--and again tying I suppose to the economy, but the 
whole issue of volunteerism on the part of parents?
    Ms. Adams. My comment was completely an anecdotal one from 
my daughter's school, so I can't give you the national numbers. 
But I think one of the things that worries me a lot is that 
as--I don't think we know from the current economy what is 
going on exactly in terms of hours that parents have.
    But you know as parents are working harder, trying to keep 
jobs harder, looking for work harder, that the kind of 
discretionary time that they need to be able to really focus on 
going to their child's school and spending time as they need to 
is going to be challenged, even if they are unemployed. That 
would allow some, but a lot of those families are really 
looking very hard for work on a regular basis during school 
hours. So they can't do it after school because their children 
are home, and they are not going to be able to afford child 
care during those hours.
    So I don't have any data for you, but I think just kind of 
a commonsense--my own personal parent experience shows me that 
I can't imagine it is increasing a lot right now.
    Mr. Loebsack. Would anyone else on the panel like to 
respond to that?
    Ms. Lowery [continuing]. We recognize the challenges that 
parents have, especially in this economy, and what we have 
tried to do in Delaware is rejuvenate Delaware Mentoring 
Council. And we know the connection between the parent and the 
child is very important, but we are also looking for community 
people who are retired from various professions who will also 
come in and act as surrogate parents with the students and 
build that relationship with them through mentoring.
    Mr. Loebsack. I think that is really important, too, 
obviously, right.
    Any of the others? Okay.
    Ms. Russell. I guess I would like to talk a little bit 
about the issue of parents in the context of our current 
economy. Because as Gina said earlier, we see parents 
struggling to try to support their families with rising 
unemployment. And as families become unemployed, their child 
care placements become at risk, their ability to afford child 
care, their ability to use it, their ability to even be 
eligible for support for the child care.
    And this is at a time when families are under the greatest 
amount of stress, so the children, young children, experience 
that stress too. And one of the things I worry a lot about 
right now is what this is doing to our children.
    Our state policies often are very rigid about providing 
assistance. You have to be working; you have 1 month to get a 
job. And so children are being pulled in and out of early 
childhood settings, which is terrible for children. And so 
right now states are scrambling with what to do about that, but 
without changes in policy that give some more flexibility so 
that children aren't hurt in this process or hurt anymore in 
this process as families struggle during the current economy, I 
think, is critical.
    Ms. Dichter. Let me just add to that because I want to talk 
just for a minute about how we look at eligibility for our 
subsidy Child Care Works program. We have a great deal of the 
concerns that people mentioned around providing our kids with 
stable settings and also understanding that the core base of 
when we are providing subsidy has to do with parents working 
and having stressed income.
    But we have created provisions that have--parents, for 
example, lose their jobs; they have several months to be able 
to maintain their children in the program while they are 
searching for a job. They need their early childhood program 
while they are job hunting.
    We rewrote our regulations in order to allow that to 
happen, but I think part of what we are trying to stress here 
is this is state-by-state decision-making now for this sort of 
thing as to what the value set is and how you implement that to 
really support the families.
    When we have created our additional state programs where we 
have been able to really put sufficient money on the table to 
get the level of quality we know will really benefit the 
children, we arranged our eligibility policy for child care 
subsidy so that the child who was going to be enrolled for a 
part of the day in a program where we were paying the right 
amount for the kid and we knew we were doing well by the child 
would be able to maintain their child care subsidy even if 
there was a disruption in the parent's employment because of 
the outcome that we were seeking for the child.
    So those were, again, all decisions we had to make at the 
state level. We did have to work with our General Assembly on 
many of them because they went into our eligibility rules, but 
we were successful in getting agreement on that kind of thing. 
So I think that we, as we look towards just the child care 
piece and additional roles for the federal government here, we 
probably need to elevate up some of our expectations and 
understanding of the interaction of our expectations for 
outcomes for children, what it takes to support them well and 
also then what it takes in terms of our value set on which 
parents--and how it is we are helping our parents to be 
successful as well.
    The last point I want to mention here because many people 
have found this counterintuitive. Yes, we are in a terrible 
time with the economy. We have never had as much demand as we 
have in our state for subsidized child care, okay. We have 
never had the level of demand. Our waiting lists are out the 
roof, okay. They are unbelievable to get into the program, and 
we have no cash left to be able to put more into the program at 
this point in time.
    So what we have is more parents, understanding there are 
people working; they need the resources and the assistance. So 
I just offer that so people don't get themselves confused that 
we are in a period where there is less need. There actually 
looks from us to be a much greater degree of need and demand 
and understanding here.
    Mr. Loebsack. Thanks to all of you, what a great panel. I 
really appreciate your being here.
    Thank you, Mr. Chair.
    Chairman Kildee. We probably will have three votes about 25 
after the hour, so we will try to move along.
    And, Mr. Polis, the gentleman from Colorado?
    Mr. Polis. Thank you kindly, Mr. Chairman.
    The success of any effort to develop a high-quality early 
childhood development system depends on a qualified workforce. 
Well-educated child care workers and preschool teachers promote 
language and early literacy skills, social and emotional 
development and prepare children for kindergarten and their 
school careers. However, as our testimonies indicated, training 
and certification requirements for pre-k teachers vary widely 
from state to state, and compensation levels are discouragingly 
low and fail to attract those who would seek these occupations 
with preparation.
    According to the American Federation of Teachers, the mean 
annual salary for child care workers is $18,120 and for 
preschool teachers is under $25,000, compared to $45,000 for 
kindergarten teachers. A 2005 Yale study showed that seven out 
of 10 teachers in state-funded pre-k programs earn salaries in 
the low-income category; one in six works a second job to make 
ends meet.
    In terms of preparation and credentials, 27 percent of 
preschool teachers don't have a bachelor's degree, and 36 
states don't require any specialized training for child care 
providers. As a result, only 55 percent of family child care 
providers and 57 percent of center assistants have at least 
some college education.
    Ms. Russell, you spoke about the T.E.A.C.H. Early Childhood 
scholarships and the Child Care WAGE$ program. The T.E.A.C.H. 
scholarship has been very successful in Colorado and since 1997 
has helped 1,172 child care professionals in our state reach 
their educational goals.
    My question is how can these unique and effective programs 
be replicated nationally. And what other efforts are other 
states taking to ensure high-quality early childhood education 
workforce exists? And what federal policies can be effective in 
helping states develop a core of highly qualified and 
adequately compensated early education teachers?
    Ms. Russell. Wow, that is a lot. The first question was how 
can they be replicated. Well, I think states have chosen to 
replicate T.E.A.C.H. cobbling together various dollars. Usually 
it isn't that states don't want to address education and 
compensation issues. I think that the real issue is a matter of 
funding. When states have to choose between various kinds of 
needs, sometimes the workforce does not get the kind of funding 
that it needs.
    You said what other initiatives are going on in other 
states. Well, we know that T.E.A.C.H. is probably the broadest 
and most uniformly used scholarship strategy. Child Care WAGE$ 
is one of a variety of wage supplement strategies that states 
are using. Pennsylvania has a different example. We have states 
like Illinois and Wisconsin and Minnesota and California doing 
various kinds of wage supplements.
    I think a lot of states recognize that, if you supplement 
the wages of the workforce directly as opposed to putting it on 
the backs of parents, you are able to drive quality without 
raising the cost. And I think that is the key to both 
T.E.A.C.H. and WAGE$ is you are doing it sort of as a back door 
way to raise quality.
    And then I think the last question was so what do we need 
at the federal level. Well, I would argue that what we need is 
more money, and that the money needs to be targeted to the 
workforce, and that there needs to be an expectation along with 
those dollars of higher standards, higher standards for the 
workforce themselves.
    You know, I think--what we have learned in North Carolina 
is that the workforce--and really across the nation--the 
workforce wants to achieve more, to go to school to learn more, 
to be better at it, but they need help. And I think, with 
resources and with standards associated with that and some 
level of accountability, we can achieve it.
    Mr. Polis. Is there anybody else on the panel that would 
like to address that?
    Ms. Dichter. Yes, I would like to add just a couple of 
points. We are very extensive investors in T.E.A.C.H.; we love 
this program. But we also had to invent other strategies to 
help people earn their degrees and credentials and to be paid 
appropriately. So we also have a program where we reimburse 
people who take classes for college credit.
    We had to very deliberately decide to stop spending public 
dollars on continuing education workshops that did not help 
people get degrees and credentials. And we had to basically say 
there is going to be a minimum of that in our system because we 
need to help people be successful; this is how we measure it in 
our society. So we had to do those sorts of things as well.
    We have had to push with higher education on program-to-
program articulation because we have adults in the workforce 
trying to get early childhood degrees and credentials. They may 
not be at only one institution of higher learning. We have a 
problem--not just in Pennsylvania--around the country of the 2-
and 4-year schools, how it is people transfer credits back and 
forth. So we have had to be working on things like that; there 
is a lot of range.
    In terms of the compensation strategies, there is a 
compensation component in T.E.A.C.H. We built a compensation 
component directly into Keystone STARS. We have merit awards 
where we encourage people to add on to compensation. We created 
a career lattice to begin to show people how they would create 
that range.
    And very importantly, when we were able to start our newest 
initiative, which was our pre-k program, which uses child care, 
uses Head Start, uses school, we were able to set the 
compensation per child at a level high enough to pay our 
teachers the right amount for those B.A.'s in early childhood 
education and certification. And we benchmarked the salaries to 
show people how to do that.
    We work with our practitioners on how they blend the 
funding streams. Okay, we create automated spreadsheets to show 
them how to do that so that people can know how to get from 
here to there. Again, even in this one area, you can't just do 
one thing. There is a set of things you have to do in the 
system as a whole to be able to help people move themselves 
forward.
    At the federal level, I think we have--Gina said this 
already--there is a lot more that could be done in the 
reauthorization of the Child Care Block Grant in terms of the 
standards, the quality rating and improvement systems, the 
stress on credentials basically and how resources have to be 
delivered. And as I said, I really think we need a new funding 
stream that unifies this across the variety of the early 
education initiatives.
    Ms. Adams. Can I add one thing? This goes back to my 
earlier comment about the importance of the block grant. I 
think it is very important to remember that the block grant is 
what is supporting many providers on a daily basis. The block 
grant rates are based on market prices, which are based on what 
families can pay, which is based on low wages.
    So I think we have to start talking about how we 
disentangle, how we allow rates the flexibility to pay what 
quality costs as opposed to simply what parents can pay. If we 
don't, we can do all these strategies, honestly, but the 
biggest funding source supporting providers on a daily basis is 
not going to allow them to sustain it in the long term.
    Chairman Kildee. Thank you.
    The gentleman from Texas, Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman. I think that this 
hearing is very helpful.
    I want to ask my first question to Secretary Lowery from 
Delaware. In your testimony, you mention ready families as one 
of the early success goals and state that families were 
significant partners in creating a culturally competent, 
comprehensive and integrated early learning system. How are you 
putting into practice the concept of cultural competence?
    Ms. Lowery. A lot of our students who are impacted by some 
of the Early Success program are our urban students, our more 
urban students. We work very closely with the United Way. We 
also, you will see in the literature, have a program called 
Success by 6. And through the United Way working with the Early 
Childhood Council, there is a lot of outreach to the 
Metropolitan Wilmington Urban League, through the Latin 
American Community Center, to engage parents in their 
communities where they are most comfortable. And our trainers 
are going in to them to take that training to them and meet 
their unique needs.
    Mr. Hinojosa. If I may interrupt you, because time is very 
short. You mention the Latin American families, and I have 80 
percent Latinos in my congressional district. I ask you the 
question: What are you doing for the families of English 
language learners?
    Ms. Lowery. Great, we have, I mentioned earlier, a private 
concern called Social Venture Partners, and that is a group 
from the Business Roundtable in Delaware headed by a person, 
Mr. Paul Harrell, who has invested a lot of money and set up an 
early childhood center in the Latin American Community Center 
and worked very closely with the director of that center to do 
outreach.
    We also have Representative Miro, because those are mostly 
for the students who live within the Wilmington community. We 
have a lot of Latinos who also live in our suburban areas, and 
Representative Miro is working in concert with them to make 
sure that those services that we are giving to our inner-city 
students will reach those students in the suburban areas as 
well.
    Mr. Hinojosa. I thank you.
    To Gina Adams from the Urban Institute, Hispanic families 
often rely on informal care, especially friends or relatives, 
for their child care. How can we support these informal 
providers so that they can provide a rich learning environment 
that supports literacy and social and cognitive development?
    Ms. Adams. It is a critically important question. I would 
say two things. One is that there are a number of strategies 
that have been experimented with in the block grant using the 
quality set-aside.
    States have been learning a lot about how to reach out to 
the community. What they have discovered is that you need to 
have a blend of what we might think of as parenting support 
because some of these providers more function as parents or 
family members, as well as our more traditional child care 
efforts. It has to be often done through trusted 
intermediaries. There are language issues, obviously, so you 
want to make sure that the materials are in the appropriate 
languages. But part of it is to not necessarily assume that 
people see themselves as professionals but see themselves as 
family members.
    But I do want to say that one of the challenges for the 
Latino community in particular is that there is a presumption 
that because Latino families use relatives that is always what 
they want. Some families do, but some families very much want 
to have an early educational experience. And part of the 
challenge that we face is to make sure that the early child 
education programs, the child care centers, the Head Starts, 
the pre-k's are actually meeting the needs of the families, 
that they have people who speak their language, so that when 
the family is leaving their child off, they are not leaving the 
child with somebody who they have no idea what is happening and 
they cannot communicate with their caregiver.
    So I think we need two focuses--one on informal care 
providers but also make sure that it is a choice.
    Mr. Hinojosa. You are making some very good points. And one 
of the things that I have learned in our Latino community is 
that if we could provide them a little training on how to read 
to young children, ages 2, 3, 4, that it oftentimes results in 
that early reading plus writing, being successful then in their 
elementary schools and thus being able to stay in school and go 
on to high school to graduate and maybe go to college.
    So I hope that you all will integrate somehow the programs 
that we sponsor here in Congress. A good example of that would 
be the RIF program, which is Reading Is Fundamental, because 
the Congress pays for 75 percent of the cost of those books for 
children of all ages. And we are trying to focus on those 1-, 
2-, 3-, 4-year-olds, so that we can get them interested in 
reading and loving books because that then will result in 
success in schools.
    My last question--and I am out of time.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you very much, Mr. Hinojosa.
    Gentlelady from Hawaii, Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    Since I have been here in Congress--this is my second 
term--this committee as well as the full committee has really 
focused on the importance of quality early education, so I 
think that we really are--you know, the evidence is in and we 
understand what we need to do.
    And two things that come out in all these hearings that we 
have been having, for me, is that the states are at all 
different levels of support for quality early education, and 
clearly Pennsylvania, North Carolina, Georgia, other states are 
much farther along than some other states and that we need to 
support a diversity of the kinds of early childhood programs, 
quality early education programs, that work. One size fits all 
is not what we need to be doing. So I think those are common 
kinds of testimony from all of you, for which I am really glad.
    And I ask every panel that comes before us in talking about 
quality early education to take a look at the PRE-K Act that 
the full committee marked up last in last Congress and we 
passed out of the committee. That bill has been reintroduced, 
and I would certainly welcome your comments and input on that 
because it is a grant program that is meant to be very flexible 
to support states' efforts toward quality early education 
wherever that state's efforts may be.
    I wanted to ask you, Ms. Dichter, that in your point to--
you said that the federal government hasn't been sufficiently 
proactive--and be still leaving too much for the states to do, 
in spite of the fact we have made substantial increases to Head 
Start, substantial increases to CCDBG funds. So can you 
elaborate a little bit more about--briefly, you know, how it is 
that you think the federal government could be much more 
proactive in this area?
    Ms. Dichter. Sure, I think I can make this concrete and 
easy. I will just give an example of one program that we have 
talked about today. I mentioned we have Child Care Works 
subsidy. Every state has some kind of subsidy program in child 
care. It is up high in everyone's mind because of the economy.
    I would need an additional $80 million a year in 
Pennsylvania to clear the waiting list. Under stimulus, the 
amount that we will be getting is $30 million a year for 2 
years, of which, as you know, we will have mandatory and very 
appropriate set-asides to continue to work on infant-toddler 
services and quality overall.
    But I think that is a very concrete example. That is only 
the families who step forward. We do have pretty non-
bureaucratic processes; you probably got the sense I am not for 
big bureaucracy in terms of how we run our programs. We do 
verify people's eligibility, but these are families still 
knowing we have waiting lists who came and said they needed 
help from us, okay.
    So I hope that helps you to see we need more financial 
resources. We don't have enough money in the system to get the 
job done well. And I think that we could benefit from having 
some greater combination of incentives and standards, 
basically, that comes with our federal funding in these areas 
and that we would do well by our families and children to take 
that kind of step. I personally believe people in the states 
and in local communities are ready for that. We have had very 
good experience in our state as we have organized the system 
and stepped up the standards and the accountability along with 
the investment.
    Ms. Hirono. From your testimony, it seems clear to me that 
Pennsylvania has gone a long way toward a very comprehensive 
approach to the continuum of services to young children.
    I have a question for Dr. Lowery. You said that you are 
partnering with the private corporations and private entities 
to really leverage state dollars. I think that is a very 
important aspect of what we need to do because clearly the 
resources do not meet the demands. So how successful have you 
been in reaching out to what I call the non-usual suspects? The 
usual suspects in this area are the educators and all of that.
    But for example, the national association of lieutenant 
governors recently passed a resolution saying that they support 
quality early education. And a group of retired generals have 
said for the military that it is really important, nothing 
could be more important than putting resources into quality 
early education to enhance our military capacity. So these are 
what I call, you know, really broadening the support and 
understanding of the importance of quality early education. So 
I just wanted you to, you know, talk a little bit about your 
success and getting money from corporations and other groups.
    Ms. Lowery [continuing]. Sorry. Our early education council 
is an eclectic group of educators, business leaders and 
community activists. So a lot of the work that we have done 
around early childhood has really been led by citizens' groups, 
including our business community.
    We are in the process of having a new survey done around 
the quality of care, as we have all been talking about today--
what kinds of standards we have in place and how we really do, 
with integrity, engage parents in the teaching and learning 
piece as the children prepare for K-12 education. That will be 
led by the lieutenant governor. That is something that is just 
about to begin.
    As I came on as secretary of education, one of the first 
hires that I made was a person from the business community who 
is there to be a liaison between private and public 
partnership. And he is the person who founded the Social 
Venture Partners, which focuses on early childhood education. 
It is one of the platforms that our new governor, as every 
governor, including Congressman Castle, has always had as of--
one of their major concerns is early childhood.
    Because maybe the state size of Delaware, we can get early 
access to many people very easily. And I can say with 
confidence and would be glad for anyone to come and sit and 
speak with any of us that our business community is actively 
engaged in supporting early childhood and in many instances may 
be the forerunners of making sure that that happens.
    Ms. Hirono. Would any of the other--oh, I am out of time.
    Thank you very much.
    Chairman Kildee [continuing]. The gentlelady from 
California, Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman, and thank you, 
wonderful panel of witnesses.
    You know, I shouldn't come to these hearings because it 
takes me back 40 years to a nightmare that I try to get behind 
me when I was poor and on aid for dependent children with 1-, 
3-, and 5-year-old children, forced to go to work because their 
dad self-destructed and wouldn't get help. And that was the 
hell-year of our life, that first year, 13 different child care 
situations in 12 months, where actually I would tell the child 
care workers that came to my home, if they had any questions, 
ask my 5-year-old son because he knew more about all this 
than--can you imagine the pressure on that little kid?
    So a lot has changed since then, and I know that. Their 
children, all five of my grandchildren, are in really good--
they are all professionals, husbands and wives. Their five 
children altogether out of the three families are in really 
wonderful child care or preschool situations and have been, but 
they can afford it. I was poor. Hardly anybody had really good 
child care options 40 years ago, but folks with the funds and 
the resources have it now.
    So my question is about the rest of the poor folks in this 
country that are left at our whim virtually. So what I wanted 
to know--if we need more federal funding, which we do, what 
controls, what federal standards do you think could be applied 
to federal funding for our community block grants, et cetera, 
because, you know, there is not going to be a lot of extra 
federal funds unless we tie it to something that is measurable.
    So between you, do you have any suggestions in that regard, 
starting with you, Secretary?
    Ms. Dichter. In the context of, say, the Child Care and 
Development Block Grant, and I guess in terms of other 
potential new federal funding, we do need to be clear about 
what it is our early learning standards are, what our 
expectations are for the delivery of the services to the 
children. I think that is fair to do that, and again from my 
own state experience, I think you can balance the issues around 
the states with a national framework for being able to do this.
    We can go on.
    Ms. Woolsey. I think we have to keep moving down because 
you saw----
    Ms. Russell, I mean, I would like you to tell me what those 
standards are, if you could, if you have some measurements that 
you would add to put in there so that----
    Ms. Russell. Okay.
    Ms. Woolsey [continuing]. That would be fair and 
measurable.
    Ms. Russell. Okay, well, one of the things that we have 
found successful in North Carolina is the quality rating 
system, and we have embedded it in our licensure so that we 
have standards that 50 percent of the quality rating is based 
on the education of the teacher and 50 percent is based on 
program quality. So helping states--one standard that could be 
found in the block grant is helping states to develop quality 
rating systems so that consumers know what they are buying and 
providers know how to improve their quality.
    I think the second thing, and for me probably the first 
thing, is to have some targeted dollars that require states to 
invest in the workforce, because the workforce is the key to 
getting the quality--for kids.
    Ms. Woolsey. Ms. Adams?
    Ms. Adams. I would add just to make sure that we talk about 
basic health and safety--sorry, we don't even have an assurance 
of basic health and safety in this country, so I would say that 
any federal standard should at least require that anybody who 
gets public funds taking care of at least one unrelated child 
should have basic inspections, should meet basic health and 
safety standards.
    Ms. Woolsey. Because I think you are leading to the fact 
that a licensed child care center may not have ever been 
inspected for safety.
    Ms. Adams. Yes.
    Ms. Woolsey. But they still have a license.
    Ms. Adams. Yes.
    Ms. Lowery. We do have a framework, the Stars program in 
Delaware, with a five-level rating system, where every child 
care provider, even if it is a child care provider keeping six 
children in his or her home has a rating level. And I do 
believe that I agree with everyone else. People need to see 
returns on their investments, so we have to have metrics to 
make sure that they are getting that.
    Ms. Woolsey. Okay, thank you very much.
    I will yield, Mr. Chairman, thank you.
    Chairman Kildee. Thank you very much.
    Mrs. Davis, from California?
    Mrs. Davis. Thank you, Mr. Chairman. Thank you, all of you, 
for being here and the work that you have done.
    I want to focus for a moment on the military families and 
the programs that we have, not necessarily just on our bases 
but some of the standards even that the military has in this 
regard. What is really interesting right now is that the key 
issue that military families are bringing is for child care and 
for preschool education for their students--for their children.
    Because despite the fact that we have some great programs 
out there, many of them either fall through the cracks or are 
not eligible within their state. California at one time didn't 
make them eligible. It is a little bit easier now, but still 
finding places is hard.
    And I wonder if you could--we know how important it is for 
those children because of instability, deployments. I mean, it 
is really a critical, critical need. Can you give us some 
concrete ideas about what we might do to support those programs 
more? But also is there a great deal to learn as well from 
their programs, from their standards? How can we apply some of 
the tools, if you will, that they have used as we look at 
federal programs and what we can do to be more supportive? I 
don't know how familiar you are with those programs.
    Ms. Adams. I guess I would just say very briefly, I think, 
from what I know--I am not an expert on the military system--it 
seems to be a designed system. It is not just based on the 
market; it is not just based--it has all the things that we 
have talked about. It has standards, it has accountability, it 
has expectations and it has resources. And I think there is a 
lot that we can learn.
    But I do want to say I think that we know those answers. 
The question is can we let the country decide that that is what 
all children need.
    Mrs. Davis. All right, thank you. I appreciate that.
    One of the areas that I think particularly, Secretary 
Dichter, in your--in the background material--and I am sorry I 
wasn't here when you spoke earlier. Family-visiting programs 
are something that are applauded in many areas and began quite 
a number of years ago. There are a lot of different models out 
there, and I am wondering whether--we always have to make 
choices. And I was impressed that it sounded like about 40 to 
50 percent of the children in Pennsylvania, perhaps in some 
areas of Pennsylvania particularly, are reached by that 
program.
    Should we be putting a lot more resources into those 
programs? Or is there enough of a controversy surrounding them 
to a certain extent, in terms of family intervention issues and 
other concerns that perhaps--political concerns that people 
have--that it is not worth focusing on that? Or in the real 
world, in terms of what is actually having an impact on 
children and their families, is that a better place to put 
one's resources?
    Ms. Dichter. We believe in the continuum of early childhood 
programs, which means we need programs that do visit with 
families at home and programs that are in classrooms and other 
group settings. And we want to make sure that our families have 
all of these options available to them.
    We are very big on evidence-based programming. We are 
investing public dollars, so we want to invest it as 
effectively as possible. So we would say there is a need for a 
continuum.
    The one cautionary note that we see with our home-visiting 
programs is that they may not meet all of the work needs of the 
families. And so, again, as we build our continuum, we try to 
be very sensitive around making sure that we are paying 
attention to all of these dynamics in the family--and Gina 
talked a lot about this--especially with our most stressed, 
lower-income families, all right. They need a significant 
number of supports, in terms of how we build the early child 
care programming.
    So I would say yes to evidence-based work, okay, and no to, 
again, only a home-visiting approach. A home-visiting approach 
amongst other approaches, very appropriate, and we encourage 
home visiting for our classroom-based programs. That is a 
requirement, as you may know, in Head Start, but it is also 
something that we think is very valuable, and teachers and 
parents both like that when that occurs as well.
    Mrs. Davis. I guess do we have enough added value from 
that? I understand, in terms of the continuum, we want to have 
it all. But that coupled with other kinds of programs, does it 
add so much value that it really is something that we need to 
take a much deeper look at?
    Ms. Dichter. Let me just say, then, the two programs we 
use--the Parent-Child Home Literacy Program and the Nurse-
Family Partnership--both have very good documentation of 
effectiveness for results for children and results in fact for 
parents, but we are very careful and cautious about how we 
field those programs.
    Chairman Kildee. The chair wishes he could take more time 
to thank the panel. You have been really helpful, various 
aspects. All of you in your own involvement in this area bring 
an expertise here and a concern, which is very, very important. 
So I wish I could take more time to thank you, but we have 
votes on the floor.
    And as previously ordered, members will have 7 calendar 
days to submit additional materials for the hearing record. And 
any member who wishes to submit follow-up questions in writing 
to the witnesses should coordinate with majority staff within 
the requisite time.
    And without objection, this hearing is adjourned, thank 
you.
    [The statement of Mr. Payne follows:]

    Prepared Statement of Hon. Donald M. Payne, a Representative in 
                 Congress From the State of New Jersey

    Let me thank Chairman Kildee for holding this important hearing on 
improving early childhood development policies and practices.
    An extensive body of research now clearly demonstrates the 
importance of promoting early language and literacy skills in preparing 
children for later success in reading and in school. Yet today, large 
numbers of children still do not receive the support and assistance 
they need to develop these essential skills and begin kindergarten 
ready to learn.
    To close this gap, the federal government has traditionally 
provided funding under Title I, Part B of the No Child Left Behind Act 
(NCLB) for a variety of literacy programs and strategies that reach 
children and parents, and the professionals that interact with them.
    However, there has emerged over the last decade a powerful and 
effective new approach to promoting early language and literacy 
development, and school readiness--pediatricians and other healthcare 
providers guiding and encouraging parents to read aloud to their 
children right from the early years of life, sending them home from 
each doctor visit with a prescription to read aloud together.
    I have reintroduced H.R, 1526, the Prescribe a Book Act, to 
authorize a five-year $85 million federal pediatric early literacy 
grant program based on the long-standing, successful Reach Out and Read 
(ROR) program, which has trained more than 47,000 healthcare providers 
in literacy promotion, and operates in more than 4,100 clinics and 
hospitals nationwide.
    This grant program would train doctors and nurses to provide low-
income parents with age-appropriate reading tips and advice about the 
importance of reading aloud to their children as well as give these 
parents a children's book at every wellness visit.
                                 ______
                                 
    [Questions for the record and their responses follow:]

                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 30, 2009.
Ms. Gina Adams, Senior Fellow,
Center on Labor, Human Services and Population, the Urban Institute, 
        Washington, DC.
    Dear Ms. Adams: Thank you for testifying at the March 19, 2009 
hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education on ``Improving Early Childhood Development Policies 
and Practices.''
    Representative Donald Payne (D-NJ), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee has asked that you 
respond in writing to the following question:
    1. Would you support pediatric and early literacy programs like the 
Prescribe a Book Act, a grant program which would train doctors and 
nurses to provide low-income parents with age-appropriate reading tips 
and advice about the importance of reading aloud to their children as 
well as give these parents a children's book at every wellness visit?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Thursday, 
April 2, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact us.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

          Responses to Questions for the Record From Ms. Adams

    Thank you again for giving me the opportunity to testify before the 
Early Childhood, Elementary and Secondary Education Subcommittee. Below 
are my thoughts in response to the follow-up questions. Please feel 
free to contact me if there is more information that you need.
    1) What do you estimate it would cost to provide high quality early 
care and education for nine hours per day, five days per week, for 52 
weeks, for (1)infants, (2)toddlers, and (3)three and four year-olds?
    This is an important question, but unfortunately one that is not 
one that I have analyzed at this point, or have the data easily 
available to do so. However, I will suggest that one of the most 
essential issues in getting information on this question is to clarify 
what form of ``high quality'' you are interested in, for what outcomes, 
and for what children. For example, ``high quality'' which not only 
addresses the cognitive needs of children but also takes a more 
comprehensive look at their needs will cost more than programs take a 
more limited approach--but may magnify and broaden the impact of the 
initiative depending on your goals and the particular families and 
children you are interested in serving. It is also critically important 
to specify key parameters of quality that you want to be the basis of 
such estimates--such as group sizes and ratios, teacher education, 
training and experience; salary levels and benefits; standards and 
accountability; and so forth.
    2) How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    See above.
    3) In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    There are many changes I would recommend to the program, some of 
which I suggested at the hearing. Below I highlight two issues that 
sometimes get less attention in the policy debate.
    a) Encouraging states to base payment rates on what providers need 
to provide quality care and are providing, rather than their local 
market prices. As I mentioned in the hearing, market prices are 
artificially low due to the inability of parents to pay, so cannot 
sustain quality. Obviously these higher rates should only be paid to 
providers who provide quality care, but nonetheless, I believe that we 
should start to decouple the payment levels from market prices for 
those providers who provide good quality. We also need to support 
providers who are working to get their programs up to meet higher 
standards by providing up front start-up funds.
    One of the challenges with this issue is the fact that providers 
vary in the extent to which they serve families with vouchers. The 
above approach works most effectively for providers whose enrollment is 
majority voucher--it is much more difficult to use voucher 
reimbursements to leverage quality for providers who only have a 
fraction of the children on vouchers. It would be useful to encourage 
states to identify creative ways to help support quality among these 
providers as well, including broader use of contracts and other 
opportunities to provide foundational supports to providers to pay for 
ongoing costs to maintain quality settings that are not supported by 
the market. [For more information on these issues, and some policy 
suggestions, see our article More than A Work Support? Issues around 
integrating child development goals into the child care subsidy system, 
by Adams and Rohacek, which can be found at http://www.urban.org/
publications/1000449.html.]
    b) One of the links between quality and access is making sure that 
the eligibility rules do not inadvertently force parents off subsidies 
and create discontinuity in care for children. In particular, we have 
done extensive research on helping states design subsidy systems that 
are more supportive and cognizant of the needs of families and 
children, and have identified a number of important policy strategies 
that states can implement in this area. [See Designing Subsidy Systems 
to Meet the Needs of Families: An Overview of Policy Research Findings, 
by Adams, Snyder, and Banghart, at http://www.urban.org/publications/
411611.html.] While this report lays out many specifics, one of the 
most important steps the federal level can take would be to increase 
funding so that states are not forced to make draconian choices between 
different needy families, and to send a clear message to states that 
the subsidy system should support families through changes to help them 
stabilize their care arrangements, and should not be cut off in 
situations where families are trying to get back on their feet or keep 
their families stable through other changes. This means states need to 
be encouraged to make changes in a number of areas, including: 
redetermination periods, interim reporting requirements, whether and 
when vouchers are terminated or adjusted in response to minor or 
temporary changes in family status, income eligibility determination 
policies, and support for critical work supports such as job search, 
training, and education. Specific examples of policies that some states 
are already putting into place in these areas are described in the 
report referenced above.
    4) If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    Again, this is an important question that is not specifically my 
area of expertise. However, I will offer a few thoughts that might be 
helpful. First, any guidelines about a floor or baseline must continue 
to be considered within the larger context of a system which has too 
few resources in it to develop and sustain good quality care. So any 
effort to strengthen basic standards must be accompanied by funding to 
support programs to come into compliance, as well as by systemic 
reforms that identify ways to ensure that programs have access to the 
ongoing resources necessary to meet these standards. The baseline will 
simply not work as long as we have a system that primarily relies upon 
the inadequate resources of private-pay families to determine what 
resources providers can use to care for children.
    Second, in addition to funding to help programs achieve and sustain 
quality, it might be useful to recognize that the effectiveness of any 
licensing or quality protection system relies on three interdependent 
issues. The three components needed to set a floor or baseline of 
quality need to address:
    a) which programs are required to meet standards or are, 
alternatively, exempt from having to meet such standards;
    b) what standards they are required to meet; and
    c) whether and how the standards are enforced for those required to 
meet them--which not only includes inspections, but also subsequent 
enforcement and follow-through for programs out of compliance.
    I often describe these as the three legs of a three-legged stool, 
as this metaphor makes it clear that all three are necessary for an 
effective system. Consequently, I would suggest that any strong system 
must involve improvements in all of these areas--specifically, must 
cover most or all programs or care settings; must include standards 
that at a minimum protect children from harm and hopefully help move 
programs towards quality through an understanding of the components 
that impact the full range of children's development; and finally, must 
include enforcement provisions that include inspections and 
followthrough if programs are not in compliance. When these steps are 
coupled with an overall approach that helps programs achieve and 
sustain quality, significant progress could be made.
    5) How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Several states are experimenting with the use of Quality Rating and 
Information Systems (QRIS), which create a continuum of quality and 
provide supports to individual teachers, centers and family child care 
providers to meet the increased standards. In some cases, they also 
provide higher reimbursements for providers meeting the increased 
standards. QRIS also provides information to parents and helps them 
understand the quality of the provider they have chosen. Consequently, 
you might consider using incentives and challenge grants to states to 
encourage the development and implementation of these systems.
    However, to be successful, QRIS need substantial resources to 
provide grants to providers to receive additional education and 
training, supports to centers and family child care homes to improve 
the quality of their environment through new materials, and increased 
reimbursements to offset the cost of meeting higher quality standards 
and compensating qualified providers in order to improve retention. 
[Note, however, the previously mentioned challenge of relying solely on 
this approach for improving quality among those providers who do not 
have a majority of their enrollment being paid for by the voucher 
system.] There are also additional costs associated with monitoring and 
assessing the quality of programs to ensure they are meeting the higher 
standards. Therefore, any effort to expand the use of QRIS should 
include additional resources to meet these additional costs.
    6) Would you support pediatric and early literacy programs like the 
Prescribe a Book Act, a grant program which would train doctors and 
nurses to provide low-income parents with age-appropriate reading tips 
and advice about the importance of reading aloud to their children as 
well as give these parents a children's book at every wellness visit?
    I believe that literacy programs are extremely important, however I 
am not an expert on this particular approach and do not feel qualified 
to offer an opinion on this issue.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 30, 2009.
Ms. Harriet Dichter, Deputy Secretary,
Office of Child Development and Early Learning, Departments of 
        Education and Public Welfare, Harrisburg, PA.
    Dear Ms. Dichter: Thank you for testifying at the March 19, 2009 
hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education on ``Improving Early Childhood Development Policies 
and Practices.''
    Representative Donald Payne (D-NJ), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee has asked that you 
respond in writing to the following question:
    1. Would you support pediatric and early literacy programs like the 
Prescribe a Book Act, a grant program which would train doctors and 
nurses to provide low-income parents with age-appropriate reading tips 
and advice about the importance of reading aloud to their children as 
well as give these parents a children's book at every wellness visit?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Thursday, 
April 2, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact us.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

         Responses to Questions for the Record From Ms. Dichter

    This memo addresses a number of questions in follow up to the March 
19, 2009 hearing. If I can be of further assistance, please let me 
know. I am glad to drill down to a more concrete or specific level if 
you do not find this memo specific enough. There is more that we can do 
to improve the early educational experiences of the nation's youngest 
children--to do so takes more financial resources than are currently 
invested as well as a more focused, disciplined approach to quality, 
demanding that all of us accept this as a core value and organizing 
premise for public investment.
    Representative Titus as well as Representative Woolsey asked 
similar questions about the role of standards in federal funding and 
how to maintain/attain quality. My responses to those questions follow:
    CCDF: For the existing funding stream that states are already 
controlling and represents a location in which many parents enroll 
their children, the Child Care and Development Block Grant, I would 
recommend that we set a baseline floor for quality for the investment 
and receipt of these dollars. This funding stream, as I indicated in 
the hearing, is also significantly underfunded and lacks a baseline of 
public funding such as what we have for K-12 public education. Keeping 
this in mind, we must find a way to advance a focus on meeting the 
learning/developmental needs of the children and in creating an 
approach that is quality improving.
    That investment would require the states to develop and implement 
an accountable, strong Quality Rating Improvement System, using the 
element we have designed in Pennsylvania for Keystone STARS, which (in 
short) 1) set standards progressively and 2) provides supports in the 
form of financial resources as well as professional development and 
technical assistance. In our experience in Pennsylvania, we have 
elevated expectations but also provided meaningful supports and an 
approach to assist the providers in doing a better job in serving 
children and in making it attractive to the providers to do so.
    The federal government can require a core set of minimum standards, 
the provision of supports to build capacity in the form of professional 
development and technical assistance as well as money, without 
interfering with the exercise of state creativity and autonomy. In 
other words, if the federal government puts a framework into place, 
states such as ours would benefit and would have opportunities to 
continue to push our work to new levels and states that are not yet 
there would be able to draw upon the framework while still exercising 
options at the state level.
    On the accountability side, as you know, I mentioned that in 
Pennsylvania we have worked to gain acceptance of the concept of 
accountability in early childhood education and I believe our providers 
are proud of the strides that they are making. Within Keystone STARS, 
we use the Environmental Rating Scales developed at the University of 
North Carolina as part of our accountability model for the purpose of 
our overall classroom monitoring, and we demand certain scores 
associated with the upper STAR levels. This tool is helpful to everyone 
as it also provides appropriate and useful feedback so that programs 
can help to improve.
    The focus on improvement is a crucial aspect of accountability. At 
the level of the child's progress, we have a responsibility to inform 
parents about how their children are doing and it is also helpful for 
our teachers and administrators in order to gauge their own needs for 
professional development and support. Starting with Early Intervention, 
where there is a federal mandate for child outcome or progress 
reporting, and then adding in our new state-funded pre-k program 
(delivered by STARS child care, Head Start, schools and nursery 
schools), we now have child-level outcome reports using a 
developmentally appropriate assessment of children (generally 3 times a 
year) that helps chart their progress. This information is fed back to 
parents, to teachers, to administrators, and as we keep building our 
system, to those offering higher education, professional development 
and technical assistance so that they know how to better target their 
efforts with teachers and administrators. We also use this information 
in aggregate to demonstrate program impact. We are building out this 
system to include children in our other quality early learning programs 
and the information at the child level is firmly grounded in our 
knowledge of the child's background, the level of public investment, 
and the standards of the program so that we an more accurately 
understand or predict the level of progress a child should be making in 
the program relative to these circumstances.
    I can provide more information to you but I hope that this 
satisfies you that there is a way to have high standards and 
expectations within the context of federal funding without compromising 
state leadership or creativity in problem solving and without 
compromising the best interests of children.
    So, within a Keystone Stars type system you would need to have:
    <bullet> Minimum Standards for the so-called structural areas such 
as class size; teacher-child ratios; curriculum linked to standards, 
which in turn should be early learning standards built to align with 
the state's k, 1st, 2nd and 3rd grade standards (noting of course that 
the early learning standards will likely include areas not found in the 
early education standards, which tend to be exclusively cognitive in 
their basis); and other critical areas such as partnerships with 
parents and management and administrative practices. I recommend you 
take a look at what we did for Keystone STARS as well as our new pre-k 
program PA Pre-K counts to get a specific feel for this and to show you 
the other enumerated categories that are needed. The list is not overly 
long as we are running publicly administered programs and as with most 
government, we want to be prudent and efficient.
    <bullet> Professional Development and Degree Support, including the 
creation of a Career Lattice.
    <bullet> Capacity building supports through professional 
development, site-based technical assistance, Environmental Rating 
Scales use, including training of site-staff on self-implementation, 
interpretation and quality improvement planning from the ERS, etc.;
    <bullet> Appropriate child assessment that is looked at against the 
standards set and the context for the child and the money invested in 
the program;
    <bullet> Financial rewards for programs as they move up STAR 
levels. This includes money for the program as a whole as well as 
resources for teachers and administrators who gain valuable early 
education degrees and credentials and stay on the job. In our system 
programs ``earn more'' if they are inclusive (enrolling children within 
infant toddler or preschool Early Intervention or those participating 
in our subsidized child care program.) These earnings come either in 
the form of increased grants when certain thresholds are reached on 
inclusion or add-on payments in subsidized child care.
    In short, the focus is a positive one, to assist programs to get 
better and to experience positive results, including monetarily, when 
they do this. It is not just about ratings but also about resources, 
including financial resources, and a system of supports. This would 
create a baseline for the investment of federal dollars in our most 
vulnerable children and in my experience, the community as a whole does 
better when provided with targets, benchmarks and supports to help 
achieve them.
    To accompany this I would also recommend a rethinking about the 
rate-setting strategies in child care and the role of the federal 
funding to help accomplish this. The current model is deficit based 
insofar as it assumes that the rates paid will be less than the private 
market would pay. This is fundamentally unfair when you consider the 
severity of the need of the vulnerable at-risk children served through 
these programs. Elevating the standards and aligning costs with more 
appropriate benchmarked salaries would provide us with better benefits 
for children and society as a whole.
    A New Funding Stream: In addition to embedding a quality approach 
that recognizes our need to start with the most vulnerable children 
first, and to connect quality with the use of what we now call 
subsidized child care, I am a proponent of a new federal funding stream 
that would apply these same principles to help states unify across 
these disparate categorical funding streams that are controlled by the 
federal government directly (Head Start), state government (child care) 
and local schools (Title I, for example, and usually state general fund 
contribution to local districts). A unifying new funding stream would 
be standards based, as I mentioned above, and would establish unifying 
high standards for programs to meet to receive operating dollars, 
whether for infant, toddler or preschool age children. This is the 
approach we used in our state for the new PA Pre-K counts program, 
which set and funded an appropriate standard, create a supportive 
system to keep providers focused and disciplined in their service 
quality, and effectively erased the difference between the child care, 
school district, and Head Start provider by insisting that they all 
meet and deliver on the same standards, subject to the same monitoring 
and oversight. This new stream would need to combined dollars to enroll 
more children at the appropriate standard of quality (with oversight so 
that this is not just a theoretical standard) and to assure that 
providers who can meet the standards can all participate.
    Data systems to inform improvement and to help with accountability 
must be included. We simply cannot do our work without these and they 
require real resources to develop and maintain with appropriate 
integrity and feedback for the program administrators at the local 
level and for the state's planning and oversight role. I can provide 
more information on the specifics of what we are doing in Pennsylvania, 
which we believe is innovative insofar as it works across all of our 
programs, incorporates management planning and financial tools that we 
must have to do a good job with public funds, tracks elements of 
structural quality (teacher qualifications, etc.) and then also 
provides a way for us to look at children with appropriate protections 
and confidentiality intact. As we focus on how our children are doing, 
we are interested in quality improvement, i.e. the focus I mentioned on 
not just the teacher qualifications but the ongoing professional 
development and technical assistance supports, the supports to teachers 
to conduct assessments, and independently verified child assessment as 
well as input from kindergarten teachers and overall a way to help us 
look at where all children stand as they enter and participate in 
kindergarten.
    Representative Woolsey also asked about encouraging states to go 
beyond a federal quality baseline. Were we to get to the type of 
programming I am thinking about both in child care and with a new 
funding stream, I think we would see significant results for our 
children throughout the United States. Additional incentives could come 
to those who exceed the federal standards by way of more money, 
although I would urge that there be predictability with that so that 
states could be efficient and effective in the use of additional 
resources.
    Representative Hirono and Woolsey also asked about specific costs 
for the provision of services. Let me start by focusing on the core 
cost component, which is the price we pay for the staff of a program. 
Personnel costs will constitute about 70% of the total cost, so this 
question focuses on staff qualification and compensation issues. As I 
stated at the hearing, we have focused on the development of a B.A. 
early education qualified workforce, also demanding teacher 
certification for our program with the highest standards for 3 and 4 
year old children. We benchmark the salaries by researching comparable 
salary structures and then evaluating this against the length of the 
year and length of day issues. This is the approach that I believe we 
should endorse system wide and while I did not do the precise 
calculations you requested, if you did not receive these from the other 
witnesses, my staff and I would be glad to do them for you. We have 
quite a bit of experience with this type of model building and 
benchmarking, so please do let me know if you want the specific 
estimated cost elements and our working assumptions for your use. We 
can do this for a 9 hour day, 5 days a week, 52 weeks/year for infants, 
toddlers and preschoolers, making assumptions using the quality 
programs we have put into place in our home state of Pennsylvania.
    Representative Payne also asked about programs run by nurses and 
doctors to provide low-income parents with reading tips and advice 
about reading aloud at well child visits. As I am sure Representative 
Payne knows, there is some evidence of effectiveness of these efforts 
and I certainly believe that we should be looking for positive ways to 
use the authority of the health care community to help children with 
their language and literacy development. But I would be cautious about 
how such an initiative would address the major gaps and problems we are 
now seeing for our young learners, and would caution that this type of 
approach would need to be part of a deeper, broader approach that would 
also meaningfully address the core accessibility, quality and 
accountability of the early learning settings (as discussed above) for 
the population most at-risk. In addition, for interventions for the 
health care community, it would be important to look other aspects of 
the health care practice, such as assuring that primary care visits 
include use of screening tools such as Ages and Stages that can be used 
in multiple settings is critical, and that the health care community 
develop a more profound and robust understanding of early childhood 
education so that better counseling can be provided to parents and 
better connections can be built.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 30, 2009.
Ms. Lillian M. Lowery, Secretary,
Delaware Department of Education, Dover, DE.
    Dear Secretary Lowery: Thank you for testifying at the March 19, 
2009 hearing of the Subcommittee on Early Childhood, Elementary and 
Secondary Education on ``Improving Early Childhood Development Policies 
and Practices.''
    Representative Donald Payne (D-NJ), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee has asked that you 
respond in writing to the following question:
    1. Would you support pediatric and early literacy programs like the 
Prescribe a Book Act, a grant program which would train doctors and 
nurses to provide low-income parents with age-appropriate reading tips 
and advice about the importance of reading aloud to their children as 
well as give these parents a children's book at every wellness visit?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Thursday, 
April 2, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact us.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 

         Responses to Questions for the Record From Ms. Lowery

Question from Representative Mazie Hirono (D-HI)
    1. What do you estimate it would cost to provide high quality early 
care and education for nine hours per day, five days per week, for 52 
weeks, for (1)infants, (2)toddlers, and (3)three and four year-olds?

    The fees charged to families for child care vary greatly even in a 
state as small as Delaware. To answer your question, we queried child 
care programs that are rated at the highest level in our quality rating 
and improvement program, Delaware Stars for Early Success. These 
programs are also accredited by the National Association for the 
Education of Young Children, the profession's premier accrediting 
organization. For full day (average nine hours), full week and full 
year, our programs charge private paying parents on average:

                  Infants: $12,792 annually
                  Toddlers: $11,625 annually
                  Three year olds: $9,768 annually
                  Four year olds: $9,684 annually

    Economist Steven Barnett of National Institute for Early Education 
Research (NIEER) estimates that the cost of full day, full year high 
quality preschool for three and four year olds would be $12,910. The 
actual cost of child care and fees charged to parents are not the same. 
The fees charged by Delaware's programs fees are close to that 
estimate.
Questions from Representative Lynn C. Woolsey (D-CA)
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?

    The Delaware average fee for high quality full day, full year child 
care for one child is $10,967 for children infant through four years of 
age. The fee charged to families is often not the actual cost of the 
care.

    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?

    CCDBG should provide the opportunity for states to develop and 
implement a single, comprehensive early childhood plan incorporating 
all federally funded early childhood programs. Incorporating state 
funded programs should be encouraged. The federal programs to include 
should be: CCDBG, Early Childhood Comprehensive Systems Grant (Maternal 
Child Health), Title I, Special Education Parts B and C, and Head 
Start. The Early Learning Advisory Councils required in the 2008 Head 
Start reauthorization provide a starting point for this work. Delaware 
is working on developing a comprehensive early childhood system to 
serve all children birth to five years as well as their families. We 
are challenged by the varied mandates associated with federal funding. 
We are committed to an early childhood system that is seamless.
    Developing America's Potential: An Agenda for High-Quality Child 
Care, the conceptual framework by a collaborative lead by the National 
Women's Law Center puts forth the elements of an early childhood 
system. The essential elements are:
    <bullet> Child care licensing standards that include health, 
safety, and child development to support children's healthy growth and 
development and apply to all programs serving young children
    <bullet> A quality rating and improvement system that supports 
families in selecting quality child care programs and that supports 
child care programs to improve and sustain quality
    <bullet> A professional development system that ensures a work 
force that is educated and skilled in meeting the needs of young 
children

    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?

    Delaware's minimum level of child care quality is set by our state 
child care licensing regulations. Effective licensing systems are based 
upon clear, measurable and research-based regulations that are fairly 
enforced. Regulations should include content to protect children from 
physical and developmental harm. According to the National Association 
for Regulatory Administration (NARA), regulations vary greatly in the 
content of what is regulated and the scope of coverage. According to 
NARA, at minimum state licensing regulations must cover:
    <bullet> Qualifications of Staff including:
     - State and federal criminal background clearances
     - Child and sexual abuse registry clearances
     - Education level of all staff
     - Specific knowledge in child development and early learning
     - On-going professional development
     - Staff to children ratios and classroom group size
     - Supervision of children
     - Learning activities, equipment, and materials to support 
children's early learning aligned with state early learning standards 
(ELG's) for infants, toddlers, and preschoolers, designed for inclusion 
of children with special needs
     - Behavior guidance and discipline
     - Parent communication
    <bullet> Health and Safety--guided by Caring for Our Children: 
Child Care National Standards by American Academy of Pediatrics and 
American Public Health Association; including
     - Fire safety
     - Environmental health
     - Reducing the spread of illness
     - Managing illness and injury prevention
     - Health requirements for children and staff
     - Nutrition
     - Transportation safety
     - Emergency preparedness
     - Safe inside and outside play space and equipment

    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?

    Delaware's baseline of quality is its child care licensing 
regulations, which are among the strongest in the country. In 2002, we 
assessed the quality of our early care and education system (child 
care, preschool, Head Start, state pre-k, and family child care) using 
the Environment Rating Scales, a benchmark higher than our licensing 
standards. This baseline quality study has allowed us to be strategic 
and focused in our efforts to improve early care and education in our 
state. Encouraging states to evaluate the quality of their system to 
develop an improvement plan would support systematic improvement.
    An incentive program for states to exceed the federal baseline 
would be helpful. We have designed and implemented a quality rating and 
improvement system for child care programs. Our professional 
development system for early childhood practitioners includes all 
individuals working in the early care and education field and is 
aligned with the K12 professional development system. However the scope 
of these initiatives is limited due to a lack of resources. We need 
assistance to implement retention and recruitment mechanisms to build 
and maintain a workforce able to support children's early learning. 
Opportunities need to be created in the federal child care subsidy 
program to encourage states to ensure that the child care purchased for 
these low income children is high quality.
Question from Representative Donald Payne (D-NJ)
    1. Would you support pediatric and early literacy programs like 
Prescribe a Book Act, a grant program which would train doctors and 
nurses to provide low-income parents with age-appropriate reading tips 
and advice about the importance of reading aloud to their children as 
well as give these parents a children's book at every wellness visit?

    The Prescribe a Book Act would allow doctors to use their 
influential position with parents of young children to encourage early 
literacy experiences. All efforts to educate parents about the 
importance of reading and talking with their children should be 
supported. Young children who are raised in language rich homes come to 
school with better vocabularies and will become better readers.
    In Delaware we have been working to encourage pediatricians to 
perform comprehensive screenings consistent with the policies of the 
American Academy of Pediatrics (AAP) at 9, 18, and 30 months as 
recommended by the AAP. Children cannot learn if problems remain 
undiagnosed and untreated. Screening tools, such as the PEDS or Ages 
and Stages, allow pediatricians to individualize consultations with 
families targeted to specific concerns identified by the screening 
process.
                                 ______
                                 
                                     U.S. Congress,
                                           [Via Facsimile],
                                    Washington, DC, March 30, 2009.
Ms. Sue Russell, President,
Child Care Services Association, Chapel Hill, NC.
    Dear Ms. Russell: Dear Ms. Russell: Thank you for testifying at the 
March 19, 2009 hearing of the Subcommittee on Early Childhood, 
Elementary and Secondary Education on ``Improving Early Childhood 
Development Policies and Practices.''
    Representative Mazie Hirono (D-HI), member of the Early Childhood, 
Elementary and Secondary Education Subcommittee and member of the 
Higher Education, Lifelong Learning and Competitiveness Subcommittee, 
has asked that you respond in writing to the following question:
    1. What do you estimate it would cost to provide high quality early 
care and education for nine hours per day, five days per week, for 52 
weeks, for (1)infants, (2)toddlers, and (3)three and four year-olds?
    Representative Lynn C. Woolsey (D-CA), member of the Early 
Childhood, Elementary and Secondary Education Subcommittee and member 
of the Workforce Protections Subcommittee, has asked that you respond 
in writing to the following questions:
    1. How much do you think it would cost to provide high quality 
child care to one child for 9 hours a day, 5 days a week, 52 weeks a 
year?
    2. In addition to increasing funding, what changes would you 
suggest to the Child Care and Development Block Grant (CCDBG) to 
improve quality and access?
    3. If the federal government sets a floor or baseline for the 
minimum level of child care quality that states will need to meet, what 
should be the minimum requirements of this system?
    4. How would you suggest we encourage states to go above and beyond 
any kind of federal quality baseline or floor?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Thursday, 
April 2, 2009--the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact us.
            Sincerely,
                                   George Miller, Chairman.
                                 ______
                                 
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
